<html>
<title> - REAUTHORIZING THE VISION FOR SPACE EXPLORATION</title>
<body><pre>[Senate Hearing 110-1134]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 110-1134

                       REAUTHORIZING THE VISION 
                         FOR SPACE EXPLORATION

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 7, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-618 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

BILL NELSON, Florida, Chairman       DAVID VITTER, Louisiana, Ranking
JOHN F. KERRY, Massachusetts         JOHN E. SUNUNU, New Hampshire
BYRON L. DORGAN, North Dakota        ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 7, 2008......................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Vitter......................................     3

                               Witnesses

Dickman, Major General Robert S., (Ret.), U.S. Air Force; 
  Executive Director, American Institute of Aeronautics and 
  Astronautics (AIAA)............................................    29
    Prepared statement...........................................    30
Johnson-Freese, Dr. Joan, Chair, National Security Decision 
  Making Department, Naval War College...........................    12
    Prepared statement...........................................    14
Kranz, Eugene F., Advisory Board Member, Coalition for Space 
  Exploration; and Former Flight Director and Director, Mission 
  Operations; NASA...............................................     5
    Prepared statement...........................................     9
Tarantino, Dr. Frederick A., CEO and President, Universities 
  Space Research Association.....................................    19
    Prepared statement...........................................    21
Whitesides, George T., Executive Director, National Space Society    33
    Prepared statement...........................................    35

 
                       REAUTHORIZING THE VISION 
                         FOR SPACE EXPLORATION

                              ----------                              


                         WEDNESDAY, MAY 7, 2008

                               U.S. Senate,
   Subcommittee on Space, Aeronautics, and Related 
                                          Sciences,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning, everybody.
    And we are delighted to have a very distinguished panel as 
we discuss NASA and where it should be going. Ultimately we 
will try to etch that into law through the NASA authorization 
legislation.
    The purpose of this hearing is to get the ideas of this 
distinguished panel as we bring to a conclusion the drafting of 
this legislation. We will then go into what is called a markup, 
which is the discussing, amending, and passing of a bill in 
Committee, and then sending it on, ready for action on the 
floor.
    It's my hope that we can get the NASA authorization bill 
moving on a fairly rapid track. With all the other distractions 
of this year, such as the appropriations bills that we have to 
do, and particularly in the political crucible of a 
presidential election year, we are trying to get all of these 
things done.
    NASA is in trouble. This little agency has been asked to do 
too much with too little. And that is the problem. It's my hope 
that, within the last 8 months or so of the Bush 
Administration, we can get the President and the Vice 
President, who set the vision for the future of NASA, to 
adequately fund it. And, of course, in, how many months have we 
got to go? May, June, July, August, September, October, 
November, December, 8 months, we can convince the new President 
to properly fund all that NASA is being asked to do. And it's a 
lot.
    We have payloads that have to be launched by the Space 
Shuttle in order to complete the Space Station. Then it must be 
equipped. It must have supplies. And it must have scientific 
experiments. One of those scientific experiments is still 
sitting on the ground, already paid for, a billion and a half 
dollars. The Alpha Magnetic Spectrometer. Fifty universities 
and 25 nations have participated in the creation and building 
of this scientific experiment which will go onboard the Space 
Station, but is configured to ride to the Space Station aboard 
the Space Shuttle.
    It is a complementary experiment to the one that is going 
to be turned on in Geneva, Switzerland, in the next couple of 
months. That experiment is this accelerator that is about 15 
miles in circumference and is going to smash two protons 
together in order for us to try to understand subatomic 
particles. The AMS experiment for the Space Station is a 
complement to that. It's going to collect subatomic particles 
out there in space called cosmic rays. And so, you see, NASA, 
at this point, can't even get around to flying the Alpha 
Magnetic Spectrometer to the Space Station.
    If that's not enough, NASA says it's going to have to shut 
down Space Shuttle so it can use that money to proceed with the 
Constellation program, which is the rocket, Ares, and the 
capsule, Orion. NASA doesn't have enough money to do both, so 
it has to shut down the Space Shuttle first before it has the 
money to proceed with the Constellation program. Resulting in 
the situation we are now in, where we are going to have at the 
very least a 5-year gap. And what happens in that 5 years? We 
will not be able to get to the Space Station on an American 
vehicle. We're going to have to pay for the Russians to build 
additional Soyuz vehicles in order for us to get to the 
International Space Station, which is about $100-billion 
investment that we have paid $75 billion.
    Now, to put it in my Southern vernacular, that's pitiful. 
And yet, that's the situation that we find ourselves in.
    Who knows what Vladimir Putin is going to charge us. And, 
oh, by the way, is he going to let us have a ride? What are the 
geopolitics going to be like in 2013-2014? Is Russia going to 
be cozied up to China? China clearly has an ascendant space 
program. They have their sites on the moon, in the published 
reports, they say, 2020. That's NASA's target, as well, if we 
get ourselves geared up. But, at the rate we're going, we're 
not geared up.
    And yet, this is the 50th anniversary of NASA. I didn't 
know they had produced a coffee table-size book on the 50th 
anniversary, but I started flipping through that, and, oh, all 
that glory came back. All of those exceptional achievements of 
NASA captured in those photographs.
    Yesterday, John Glenn, Bart Gordon, and I introduced John 
Hendricks, the head and founder of the Discovery Channel, and 
Dr. Griffin. NASA found this old crinkled-up 9-millimeter film 
of some of the glory of things that have never been seen, going 
back to Mercury and Gemini and Apollo, and they collaborated 
with the Discovery Channel, digitized it, and put it into high 
definition television. They showed us some snippets yesterday 
when we announced this project. I'm telling you, when you see 
Ed White for the first time open up that door of Gemini and 
start to float freely out there, this is stuff that we've never 
seen, and this is all in high definition, living color. It's 
incredible.
    The future holds a myriad of challenges, and if these 
trends that we see right now don't change, then the bottom line 
is that NASA has to do too many things with too few resources. 
We're going to rue the day that this occurred, because either 
we're going to have another accident, which everybody in the 
space team works day and night to avoid, but, spaceflight is 
risky business, or we're going to see ourselves drift, and 
we're going to be overtaken by other countries, and it could be 
the Chinese.
    I can tell you, and I know the Senator from Louisiana feels 
the same way, no American wants us to be a second-rate power in 
space. We were before, when the Soviets took the high ground. 
And with a lot of grit, determination, and political will, we 
decided to overcome. And we did. And we have. And we still are, 
every day, overcoming. But, that could be slipping. And we 
don't want that.
    So, the purpose of this hearing is to find out what you 
think from the experts. Where do you think we ought to go? And 
then we'll be fashioning this authorization bill.
    So, let me turn to our Ranking Member, Senator Vitter.

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you very much, Mr. Chairman.
    I agree with all of your comments and all of your 
perspective. This is not a partisan issue, this is not an 
ideological divide. I agree completely.
    And, indeed, as a conservative, I believe the Federal 
Government should concentrate on select things that really only 
the Federal Government can do properly or adequately. And, at 
least for the time being, well into the future, space is 
definitely one of those things which can also have enormous 
benefit to other advances for our economy. So, I agree with you 
completely, and I want to thank you for this hearing, but also 
for this hearing in the context of a path leading to the 
drafting and introduction and passage--this year, hopefully--of 
a NASA reauthorization bill.
    I know the conventional wisdom up here is that nothing can 
happen this year. Well, I don't buy that conventional wisdom in 
a lot of respects, and I believe a NASA reauthorization bill 
can disprove it; and I think we can do it this year, and we 
should sure as heck try very, very hard, for all of the reasons 
you have laid out.
    We do have enormous challenges in moving forward with our 
space program. We're facing, as you said, a period of time 
when, for purely budgetary reasons, we'll have no U.S.-owned or 
U.S.-based option for delivering crews and cargo to what will 
finally be a completed International Space Station, including 
the U.S. National Laboratory finally ready to be used for 
research, promised, really, for the past 15 years. And in order 
to protect that investment, in order to minimize that period of 
time when we don't have that capability, in order to do the 
research we've been building toward for 15-plus years, we need 
to look very hard at this gap, and shrink it, and mitigate it 
in any way possible.
    I think that's very important--again, for all the reasons 
you have laid out. Even the NASA Administrator, Dr. Griffin, 
has called the current situation, ``unseemly in the extreme.'' 
And I believe that's an understatement.
    So, this hearing is important, and this process, hopefully 
leading to a reauthorization bill this year, is important, to 
look at how we close the gap, to look at anything--the COTS 
Program, an acceleration of that can possibly lend to that 
effort; to look at how we try to come up with one to two 
billion additional dollars, and how exactly we would best use 
that as we move on to the next generation of NASA.
    Now, we have, understandably, focused on the challenges. I 
think it's important, though, to also note the opportunities. I 
had a great honor of meeting with Gene Kranz yesterday, and we 
had a great visit, and he underscored a couple of things, in 
terms of those opportunities.
    First of all, he said, and I agree with him, that we have a 
truly great plan that makes a lot of sense, that is on a par or 
better than any plan for the next step that NASA's ever had in 
its history. We also have, he said, and I agree, a great 
administrator, who has the confidence of the whole agency and 
the whole community, very respected here on Capitol Hill. So, 
we have a lot of things going for us as we take this next big 
step, but if that gap is too large, the big step is going to be 
too big to take, folks are going to become disenchanted, and 
we're going to lose a lot of talent in the program, which will 
set us back even further.
    And so, clearly our biggest challenge is to shrink and 
minimize that gap, and move forward with this next-generation 
activity to stay at the cutting edge.
    Again, Mr. Chairman, thank you for your commitment to 
pushing that process forward through a reauthorization bill. 
And, like you, I'm very eager to hear the thoughts of all of 
our distinguished witnesses.
    Senator Nelson. As we get on down the line, we will try 
again, like we did last year, to get additional resources for 
NASA. Last year, we were unsuccessful in persuading the White 
House Budget Office to support us in a billion extra dollars 
for NASA so that we could shorten the gap that Senator Vitter 
mentioned from 5 years down to 3 years. We are going to try to 
do that again. And my argument will be very simple, ``Mr. 
President, you laid out the vision. The vision is there; but 
with no money, it's a pipedream and the vision does not come 
into reality.''
    That will be an effort by an awful lot of us here on 
Capitol Hill, in a bipartisan fashion, just as it was last 
year, and of which it ultimately fell because of lack of 
support.
    Poor NASA, in the aftermath of the Columbia disaster, spent 
$2.8 billion in recovery and return to flight operations. But, 
NASA had to eat that out of its operating funds. That was not 
the case 22 years earlier, in the destruction of Challenger. 
The costs of recovery were additionally supplied over and above 
NASA's operating funds. So, the attempt that we will make again 
this year is just to reimburse NASA $1 billion of the $2.8 
billion that NASA had to eat in the repair and rejuvenation 
after the destruction of Columbia.
    We have an exceptionally distinguished panel. Gene Kranz, 
the former director of NASA's mission operations. He's best 
known as one of the leaders of the team of NASA flight 
directors that created a miracle. The miracle was bringing back 
three astronauts when they had an explosion on the way to the 
moon, and how they did that in real-time. He's the one that 
came up with the phrase, ``Failure is not an option.'' How much 
has that symbolized the exceptional success of NASA over 50 
years? Failure is not a option, and they figure it out.
    In the back of the room, we're pleased to have one of the 
early pioneers, Wally Nelson, and his wife, Mrs. Nelson. Will 
you stand up and be recognized?
    [Applause.]
    Senator Nelson. Dr. Joan Johnson-Freese, the Chairman of 
the National Security Decision Making Department at the U.S. 
Naval War College. She has served on the National Research 
Council, the Space Studies Board, and Congress's Advisory Panel 
for U.S. Space Launch Capability Study. She has focused her 
research and writing on space programs and policies. She's an 
expert on China. I got to know her, years ago, when she was at 
the University of Central Florida, doing her space studies 
there.
    Then we are pleased to have Dr. Fred Tarantino. He is 
President of the Universities Space Research Association. It's 
a private, nonprofit corporation founded back in 1969 under the 
auspices of the National Academy of Sciences. Their membership 
consists of over 100 universities in space-related sciences or 
engineering. He has previously served in the White House Office 
of Science and Technology Policy, and as U.S. Chair of a Joint 
U.S./U.K. Power Working Group.
    And we are pleased to have Major General (Retired) Bob 
Dickman. He's the Executive Director of the American Institute 
of Aeronautics and Astronautics. They represent over 35,000 
aerospace workers and students. General Dickman has served in 
numerous senior positions in the Department of Defense, 
including the Air Force's director of space programs and the 
Department of Defense space architect.
    We are pleased to have George Whitesides, who is the 
Executive Director of the National Space Society. It is 
dedicated to the promotion of human spaceflight and 
exploration, as well as space education and development. It was 
founded in 1974 by the legendary Dr. Werner von Braun and one 
of the great space afficionados, broadcaster Hugh Downs. You 
thought I was going to say Walter Cronkite, who today still 
remains the number-one space afficionado. Mr. Whitesides is a 
member of COMSTAC. It's an advisory committee to the FAA's 
Office of Commercial Space Transportation.
    Because of the size of the panel, I'm going to ask you all 
to try to keep it to around 5 minutes so it'll give us time to 
get into the ``warp and woof'' of questions. But, Mr. Kranz, 
I'm going to take the liberty to say that you are not compelled 
to obey the 5 minutes.
    [Laughter.]
    Senator Nelson. I want people to hear you. I want people to 
know what a national resource you are, and have been, as a 
great asset to this country.
    So, Gene Kranz, talk to us.

          STATEMENT OF EUGENE F. KRANZ, ADVISORY BOARD

          MEMBER COALITION FOR SPACE EXPLORATION; AND

              FORMER FLIGHT DIRECTOR AND DIRECTOR,

                    MISSION OPERATIONS, NASA

    Mr. Kranz. Thank you very much, Chairman Nelson and Ranking 
Member Vitter. It's a real pleasure to have the opportunity to 
address you this morning.
    I've been involved in aircraft or spaceflight operations 
for over six decades. During that period of time, I've seen our 
Nation grow in prosperity as a result of our investments in 
aircraft and space technologies.
    In 1957, I was a fighter pilot in Korea, and, as we would 
go out on our missions to escort the reconnaissance aircraft 
along the DMZ, we would be advised by our radar controllers 
that we had Russian MiGs basically shadowing us. And the 
Russian MiGs had an altitude advantage of at least to 2,000 
feet. Their perch position put them on the high ground; and at 
any time during our mission, they could choose to attack if 
they would cross that DMZ.
    Returning from a mission 1 day in October, I was advised by 
my crew chief that they had heard that the Russians had 
launched a satellite, Sputnik. And this satellite was basically 
circling the globe every 90 minutes. We didn't understand what 
this new business of space was about, but it was obvious that 
the Soviet Union had raised the bar on the high ground. They 
had achieved a new perch position that the United States was 
not capable of reaching.
    I spent 2 years as a flight test engineer at Holloman Air 
Force Base, adapting various weapons systems to the B-52, and 
then answered an advertisement in Aviation Week that indicated 
that they were forming a Space Task Group. They were looking 
for Americans, young engineers, to establish the feasibility of 
putting an American in space. At that time, the Soviets had at 
least a two-and-a-half year, possibly even a longer, lead on 
us. And the young engineers that we had at the Cape, at Langley 
Field in Virginia, Goddard Space Flight Center, were truly 
frustrated by the position of dominance that the Soviet Union 
appeared to have. We were frustrated. We saw the Gagarin and 
the Titov flights. We couldn't match those flights.
    Finally, we answered with a John Glenn. The John Glenn 
mission was basically our entry into the big-time business of 
manned spaceflight. But, the Soviets quickly countered with a 
dual launch, attempting a rendezvous. So, again, it was 
obvious, this high ground was owned by the Soviet Union.
    We continued to pursue the Soviets. And as we approached 
the early Gemini program, we attempted to perform America's 
first EVA with Ed White. But, again, the Soviets beat us to 
that high ground, they accomplished the first manned 
extravehicular operations. So, we battled for position until 
America reached this dominant position. We had accomplished the 
rendezvous during the Gemini 1976 mission.
    We were concerned about the Soviets during that period of 
time, but we now knew we had the team in place, and we had the 
technology, we had the manufacturing ability, our contractors 
were delivering. America was delivering the systems we needed 
to maintain our perch position now in the high ground.
    We raised the bar for the Soviets when we accomplished the 
lunar landing, and each one of those successive missions was 
basically a symbol of America's technology. We basically were 
able to capture the minds and hearts and wills of the people of 
the free world. We were leaders in space, and we maintained 
that leadership in space through the Skylab Program. We opened 
up a marvelous array of new sciences. We got involved in Earth 
resources and the solar astronomy and the medical experiments.
    So, we had now raised the bar even further, from a 
standpoint of our earliest and probably the most productive 
Space Station that we had up through that date. We met with the 
Soviets and accomplished a relatively simple rendezvous, but we 
were always driven in space by this vision that we were given 
by John F. Kennedy. We had a vision for space. We knew where we 
were going.
    We then moved into the Shuttle Program. The Shuttle 
Program, to some extent, was different, and I'd like to come 
back when--later on, and talk about the gap between Skylab and 
Shuttle. But, again, we maintained this dominant position in 
space with the advent of the Space Shuttle. It was a marvelous 
flying machine. It did everything that we had asked for. We 
rendezvoused, we conducted experiments in space, we recovered 
satellites, we deployed, satellites, we supported the 
Department of Defense. We were on a roll there, as Americans, 
with this new technology, and then we had the Challenger 
accident.
    And the Challenger accident set us, now, back on a path 
where we no longer could support the DOD, we no longer could 
deploy the satellites. We became our own customer. We started 
running from the risks of our business, and we started to cede 
the high ground.
    We are now in a position, in 2007-2008, where we recognize 
this high ground will be forsaken, it will be challenged. New 
people, new individuals, new countries, new leaders will emerge 
for that high ground. And I am very concerned about our 
Nation's ability to maintain the leadership, not only in space, 
but the leadership that produces the technology that keeps the 
economic engine of our country going, the leadership that 
inspires our young people, the leadership that is basically 
going to drive our factories and put Americans to work. 
Leadership is really the key. Technology drives the economic 
engine of our country.
    In the early years in space, it was power and prestige, it 
was the Cold War. Now it is technology and economic benefit. 
These are the fruits that we harvest from our work in space. 
We're in great danger of losing our ability to keep this 
economic engine going at full throttle. And this is important, 
if we are to have a future. It's important to inspire our young 
people.
    Now, back to the gap in the program. I faced a 6-year gap 
between the time that we had finished the Skylab Program and 
the time that we began preparation for launch in the Shuttle. 
This was the most difficult time I ever faced as an engineer in 
spaceflight operations, because I saw many of my very best 
people leave. The top leaders in the program and in the 
organization--my flight director stayed with us--but the mid-
level managers, these are the people who came up through the 
programs--the Mercury, Gemini, Apollo Program. They became the 
risk managers. They were the ones who would take the place of 
those people who would retire shortly after the Shuttle Program 
began. So, I needed these mid-level leaders, but, basically, 
they didn't see that space was in their near vision. They were 
very aggressive, they were bold, they were mobile, so they 
moved into other business. We had learned a lot about space 
sciences from the Skylab Program, so some of them went into 
the--solar astronomy, a few of them became medical doctors. I 
lost these people.
    And they were very difficult to replace, because in the 
early years, most of our people came in from aircraft flight 
test. We had a very healthy aircraft program and emerging space 
program. So, we could draw people in from our contractor base, 
and use them. But, as we moved into the early 1980s, the 
Grummans had disappeared, the General Dynamics had disappeared. 
We did not have this source of young people that we could bring 
in out of our aircraft manufacturers, and, in particular, out 
of flight test.
    So, in order to meet this need with the new young leaders, 
we established a boot camp to bring our people through. We took 
the best of the leaders that we had still remaining with us, 
and used these as the teachers.
    So, it is important that, as you move through this gap, 
that NASA does not leave this--lose this generation of young 
people who grew up in Shuttle, went through the cauldron of 
Challenger and Columbia, and emerged smarter and wiser and 
better. It is important that we basically move this gap, 
basically reduce it to the absolute minimum.
    Next thing is to address this question of architecture. 
I've been involved with two of the graybeard sessions at NASA. 
That is my only--the only relations I have with NASA today is 
to basically do a program for all new employees, a history 
program. I reviewed, after Columbia, some of the simulations, 
how they're training, but, basically, the graybeard activities, 
we had two of them related to--Jeff Hanley would bring his team 
in, and they would go through how the architecture was 
responding to the vision of President Bush. And this vision is 
respected in your 2005 appropriation.
    This is the best game plan that I have seen since the days 
of President Kennedy. This blueprint for space was turned into 
an architecture by Hanley's and Griffin's team, and it 
represents the very solid foundation that we need to move 
further into space. I would compare it to the DC-3. I worked in 
a B-52. Fifty years after I worked as a flight test engineer, 
that system is still delivering for America. The system that 
Griffin's team is putting in place will be delivering for 
America 50 years later. It's the right thing.
    So, the message that I would give to you and to the U.S. 
Congress is, ``Stay the course. Stay on track.''
    A bit about the team. Mike Griffin is the finest leader I 
have seen in NASA in the last couple of decades. He is the 
leader that we have deserved. He has the respect of the 
working-level devils. He's built a fine team. He's got the 
ability to make the difficult go/no-go decisions, because there 
is nothing in space that's easy. There's always some ambiguity 
in the decisions you're making. He is the right man at the 
right time.
    And the team that he's put in place--Bill Gerstenmayer, 
Jeff Hanley--I raised them. They were members of Mission 
Control. They were my risk leaders. They were the people who, 
again, grew up through Challenger and Columbia. They know what 
it is to make tough, visceral decisions. They're ready to do 
the job. Keep them in place, because, I think, in addition to 
the funding issue, a big change in leadership in this program 
also represents a significant risk.
    I would talk about the issue of public support. You know, 
I've seen notes in the paper that says the public support is 
not there. Well, I have talked to--since I've retired, I moved 
into the speaking and bookwriting business, I flew air shows, I 
did all kinds of fun stuff, but one of the things that is most 
enjoyable to me is to meet the public. I've probably talked to 
almost a million people in 700 corporate events throughout the 
United States. I talk to the kids. I see the energy that these 
entrepreneurs have, the Fortune 500 companies have. They 
recognize their dependence upon NASA for the technology that is 
going to allow them to remain in business.
    Just past Monday it was, I spoke to Olympus USA. Olympus 
USA, probably one of the top optic countries in the--companies 
in the world, producing the instruments that are used for 
diagnostics. They are very interested in learning what NASA 
intends to do, where they intend to go. I speak to the young 
kids. I talk to kids sponsored by Sprint and Lego. I've been in 
inner cities all through the Northeast. I've toured Florida, 
I've toured Ohio. The young kids want to be astronauts, and I'd 
rather have them want to be astronauts than mindlessly play 
this Grand Theft Auto IV game in computers.
    [Laughter.]
    Mr. Kranz. OK? It is important to inspire these kids, 
because if we have an education problem, it starts with 
motivating the kids to study engineering, math, science, and 
remain in school.
    And finally, I'd sort of try at NASA--one final word here 
and then I'll turn on to these people here--my daughter works 
in the--for United Space Alliance, and I always get on her case 
because of all these big, fancy meetings they have, where it 
seems that the space people talk to the space people, the 
contractors talk to each other. What they ought to do is take 
some of that money--and I--and in my time-frame, Chris Kraft, 
my boss, would say, ``Look, you go to Detroit, who are having 
brownouts, you talk to them about space solar power.'' It is 
time for NASA to recognize there is no free ride. We've got a 
long-term space program that we must get public support for, 
and it has to come from grassroots. It is time for NASA to 
direct every NASA and contractor employee to get out in the 
field, earn their spurs, and talk to Rotaries and the Kiwanis 
and the Chamber of Commerce and the church group, time for NASA 
to get off its duff, get out of its comfort zone as engineers. 
And this is right down to the lowest guy in the organization; 
they can do it.
    So, I thank you for the opportunity to speak today, and 
really appreciate the work that you're trying to do.
    Thank you.
    [The prepared statement of Mr. Kranz follows:]

Prepared Statement of Eugene F. Kranz, Advisory Board Member, Coalition 
for Space Exploration; and Former Flight Director and Director, Mission 
                            Operations, NASA
    Chairman Nelson, Ranking Member Vitter, and Members of the 
Subcommittee, thank you for inviting me here today to present my views 
on the future of our human spaceflight program as you consider 
legislation to reauthorize NASA. Before we discuss those issues, I 
would like to offer some thoughts on NASA's past as we celebrate its 
50th anniversary this year.
    In 1957, the Soviet Union launched Sputnik. As someone who was 
present at the time, that event had a tremendous impact of the psyche 
of our Nation in the midst of the Cold War. Our country responded, 
first with the creation of NASA from the old NACA, then with the launch 
of the first U.S. satellites and the initiation of the Mercury program. 
President Kennedy's lunar challenge to a novice space industry was 
issued when we had only 20 minutes of human spaceflight experience. 
Achieving the lunar goal within the decade of the 1960s was possibly 
the greatest technical and scientific challenge of our age.
    Meanwhile, the Soviets were moving aggressively ahead with their 
own human spaceflight program, starting with the orbital flight of Yuri 
Gagarin when we had yet to launch our first astronaut.
    The Space Race was on! The U.S. was at least 2\1/2\ years behind at 
the start; however, America's capacity as a free nation provided the 
inventions, the new technology and the talented people to put us on the 
path to catch and then surpass the Russian space efforts. With the 
Gemini 76 mission rendezvous in 1965, we had moved into the leadership 
position in space and the lunar target was firmly in our sights.
    By the end of the 1960s, we had moved ahead with successful moon 
landings. Our country was united in its goal, steadfast in its purpose, 
and unwavering in its commitment at a time when we were facing division 
and turmoil in other parts of our society. That united effort put 
America in the lead position as the dominant space power. This 
leadership continued through the latter part of the 20th century as we 
moved on to develop the Shuttle, initiate construction of the 
International Space Station, launch the Hubble Space Telescope, and 
send rovers to Mars, among many other space accomplishments. However, I 
caution those on this Subcommittee, others on the Hill and space 
industry leaders . . . our leadership role cannot be taken for granted. 
We face a new challenge that is even greater than what we faced during 
the Cold War.
    Over the past 50 years . . . our country has profoundly benefited 
from the space program in more ways than it is even aware. In a recent 
report, the Space Foundation estimated that the value of the world 
space economy is $250 billion. So many industries--telecommunications, 
agriculture, medicine, Earth observation, public health and safety to 
name a few--have advanced and grown due to development of space 
technologies. Our aerospace industry is the envy of the world, 
employing 650,000 Americans in high-wage, high-skill jobs. It is one of 
our few industries that actually enjoys a trade surplus with our 
foreign competition. Every time NASA accomplishes a great achievement, 
the interest of our young people in pursuing a career in science and 
engineering spikes upward. When those kids graduate from college, they 
may not all end up working in the space program, but many of them end 
up with leading commercial technology businesses in Silicon Valley and 
elsewhere. Last, and perhaps most importantly, space plays an integral 
role in our national security, demonstrated most recently in our 
conflicts in Afghanistan and Iraq.
    So, that brings to me to where we are today and for the foreseeable 
future. Space is no longer about the United States and Russia. The 
Europeans, Japan, Canada, India, and China all have active space 
programs, some working in cooperation with ours; others pursuing their 
own national objectives separately. Iran, Syria and North Korea are 
among the other countries that are aggressively pursuing space 
capabilities.
    NASA plans to shut down the Space Shuttle in just over 2 years. By 
2010, the Shuttle will have served our Nation with distinction for 
thirty years. Its final missions have been dedicated to finalizing 
construction of our National Laboratory in space, the International 
Space Station, a truly global collaboration. Still, it's an effort 
largely led and financed by the U.S.
    NASA is now in the process of developing the next-generation human 
spaceflight vehicle, called Project Orion, and its launch system, Ares 
I. These systems are based largely on proven technologies and systems 
derived from the Space Shuttle and Apollo programs. In my view, this is 
a sensible approach from both a cost and schedule standpoint, and one 
well thought through by Administrator Griffin and his team. The 
ultimate goal is to return to the moon and to establish a lasting human 
presence on its surface. The moon remains relatively unexplored and 
also presents new and interesting scientific prospects, whether it's 
greater research into its unique geology or use as a fixed platform 
without atmospheric interference for a new generation of space 
telescopes. It is an exciting and dynamic initiative.
    The funding stream that has supported the Shuttle will be 
redirected to the major development phase of Projects Orion and Ares. 
However, this approach, as laid out in the Vision for Space 
Exploration, will lead to the creation of roughly a 4\1/2\ year gap--at 
least! This decision and impractical, shortsighted approach was not 
driven by the current NASA leadership, but rather by the preceding 
regime in close coordination with ``bean-counters'' from the Office of 
Management and Budget.
    These decision-makers believed that grounding America's human space 
transportation and losing tens of thousands of aerospace jobs across 
the U.S. was desirable in the interests of essentially flat annual 
budgets. That's irresponsible, and an unreasonable budget level for an 
agency that currently represents only 6/10ths of 1 percent of the 
entire Federal budget. The decision to limit NASA to this very meager 
budget has been well characterized by Senator Nelson as ``spaceflight 
on the cheap.'' You cannot safely, efficiently and successfully do 
``space flight on the cheap.'' While I believe the goals of the Vision 
for Space Exploration to push to the moon and beyond, and the 
subsequent endorsement of those goals in the NASA Authorization Act of 
2005, are the right approach, I find it disturbing that the 
Administration budget requests have been well below those called for in 
the 2005 Authorization Act. The budget resources do not match the goals 
and requirements, and further reductions, such as the FY07 budget 
shortfall of $577 million, set NASA and its programs up for failure.
    During this gap period, we will have a $100+ billion orbiting lab 
that will be ready for all of the innovative microgravity research in 
human health effects, materials science and other areas that have been 
planned for a long time. But we will have no way to get our crew to it 
and home again, except on a Russian Soyuz. For that access now, while 
NASA still has the Shuttle available, we are paying the Russian Space 
Agency $780 million and getting a waiver from the prohibitions in the 
IranSyria-North Korea Nonproliferation Act, a law designed to 
discourage nations from cooperating with dangerous programs of 
countries that are state sponsors of terrorism. Russia has been a 
reliable ISS partner, but the Russian Space Agency is under-funded and 
facing aging infrastructure issues, as well. Memories of accidents and 
safety issues onboard the Mir are still with most of us, as well as the 
more recent troubles experienced by the Soyuz, making a second 
ballistic re-entry just a few weeks ago. When this issue of U.S. 
reliance on Russia was raised in hearings earlier this year, 
Administrator Griffin testified that it was ``unseemly in the 
extreme.'' I completely agree.
    But there is an even bigger challenge in the future of our space 
program. China is the new competitor in this second Space Race and the 
country that poses the greatest threat to our leadership. China has 
publicly declared a goal of establishing a permanent manned base on the 
moon. When it is not putting our orbiting assets and those of other 
countries at risk by testing anti-satellite weaponry in violation of 
international protocols, China is successfully completing orbital human 
space flights. In 2004, more than 600,000 students graduated with 
engineering degrees from institutions of higher learning in China, 
compared to 70,000 in the U.S., as reported by the National Academy of 
Sciences. That's eye opening, but even more so is the fact that China 
also actively uses covert means to access U.S. technology and 
scientific information. An April 3, 2008 cover story in the Washington 
Post references ten cases in the past year alone where alleged Chinese 
agents have been arrested or sentenced for the illegal export of 
sensitive U.S. technologies. Reportedly, Shuttle technologies were a 
target of this espionage activity. As reported in The Wall Street 
Journal and Aviation Week, among other major publications, China is 
importing ``ITAR-free'' satellites and other space technologies from a 
European company, thereby evading U.S. export controls that are 
intended to safeguard our national security. China is also developing 
its Long March 5 rocket that will be capable not only of delivering 
people to the moon, but also landing nuclear payloads anywhere in the 
United States.
    It is time for our country and our Nation's leaders to tune in to 
these facts and back off of their naive views of ``space on the 
cheap''--other countries are making the necessary resource investments; 
and it's time to do the same before the option to respond is no longer 
an option.
    It is important to look at the issues and challenges facing our 
space program with clear eyes if we are going to be successful in 
solving them. We need to limit the duration of the U.S. human 
spaceflight gap and prevent it from growing, to forestall the 
hemorrhaging of our talented and experienced aerospace workforce and 
supplier network. The only approach is to provide additional funding, 
as the Senate has tried to do in the last couple of years, to 
accelerate development of the new vehicle. I commend many here on 
Capitol Hill and thank them for their efforts to reimburse NASA for 
money lost due to Hurricane Katrina and Return to Flight costs. Their 
efforts to request the additional funding are exactly the kind of 
support and leadership we need on the Hill, particularly when there are 
competing national priorities and their colleagues, who oppose the 
support, would rather leave our Nation's budget lingering in a 
Continuing Resolution. Administrator Griffin has testified that an 
additional $2 billion in funds spread equally over this year and next 
would enable the agency to cut 18 months off of its delivery time. That 
would narrow the gap to around 3 years. That is far from ideal, but it 
reduces our reliance on Russia significantly and may be a short enough 
time-frame to prevent wholesale loss of critical aerospace skills.
    We will be facing a change in the Presidency in just a few short 
months. I know all three major candidates have taken varied and often 
vague positions on our space program, as tends to be the case during 
election season, but it is important that the party taking office 
recognize the need for continuity in NASA leadership, and make a firm 
commitment to provide the necessary funding for our Nation's 
``independent'' human space exploration programs. The architecture and 
program plan for Projects Orion and Ares are sound and any further 
redesign and debate will only result in incurring more costs and 
widening the gap. Program restructuring and design changes were major 
factors in delayed development of the ISS. With this gap looming, we 
don't have the liberty of unnecessary changes in program direction and 
mid-course correction.
    My last recommendation is aimed more at NASA than the Congress. Our 
space agency has a public support, or approval rating, of around 70 
percent . . . a rating that would leave many politicians envious. 
Additionally, NASA has one of the highest public profiles of any in the 
Federal Government and its website is one of the most frequently 
visited. Within its means, the agency has been reasonable in its public 
relations efforts and effective at leveraging ``space'' to build 
partnerships with Hollywood to get its message out, but on this issue 
of Shuttle retirement, the gap, and development of the new vehicle, the 
public is blissfully unaware. Maybe the media with its short-term focus 
shares some blame, but I believe the agency can do more to educate the 
public about what looms ahead. Part of that mission also entails better 
outreach, particularly to young people who communicate in much 
different ways than just a few short years ago. I've never believed 
that nonsense about young people no longer being excited or 
``inspired'' about space. When a kid learns about some of the exciting 
missions the agency is working on, tours the space centers, meets an 
astronaut, or views the bold and beautiful images of outer galaxies 
captured by the Hubble, they light up in the same way that kids did in 
the heyday of Apollo. More creative and less traditional communications 
efforts have started, but NASA needs to move more quickly into all 
mediums of communication, fully embracing opportunities offered by 
YouTube, MySpace and Facebook, as well as continuing to leverage the 
traditional outreach of speakers bureaus, career fairs and the co-op 
and internship staffing programs.
    Thank you again for inviting me to testify and I stand ready to 
answer any questions you might have.

    Senator Nelson. That's as well said as anybody could say 
it. Thank you for that. I have a feeling that the way you 
encapsulated everything there is going to be a message that 
we're going to spread around so that people will have the 
understanding of what you've just said in order for America to 
return to the glory days.
    All right. Dr. Johnson-Freese?

        STATEMENT OF DR. JOAN JOHNSON-FREESE, CHAIRMAN,

NATIONAL SECURITY DECISION MAKING DEPARTMENT, NAVAL WAR COLLEGE

    Dr. Johnson-Freese. That's a hard act to follow.
    Senator Nelson. Amen.
    [Laughter.]
    Dr. Johnson-Freese. Mr. Chairman, Mr. Vitter, good morning, 
and thank you for the opportunity to present my views on 
reauthorizing the Vision for Space Exploration.
    I must begin by noting that the views I offer are mine 
alone and do not represent the U.S. Navy, the Department of 
Defense, or the U.S. Government.
    This is a topic whose importance and impact extends far 
beyond the realm of space exploration. The path America follows 
in human space exploration will, I believe, be read by much of 
the international community as indicative of America's 
intentions in the world, and therefore it will be a key part of 
how we define the strategic future of the United States.
    In my written testimony, I present what I consider the 
value and importance of the U.S. human spaceflight 
capabilities, the implications and consequences of a gap in 
those capabilities, and an assessment of needs in order to 
accomplish the missions, the multitude of missions that NASA's 
been given. In the few minutes I have here, however, I'd like 
to focus on the strategic implications of uninterrupted human 
spaceflight program for our relationship with the rest of the 
world.
    First, however, let me be completely candid about my 
general view of the vision. As I wrote, last year in my book on 
American space policy, I believe that the administration's 2004 
vision, especially the timelines, while well intentioned, was a 
vision bordering on fantasy, and thus, effectively doomed from 
the start. Nothing in the interim has led me to revise that 
conclusion, as the vision has never met even the most basic 
test of a plausible and executable policy; namely, to align 
benchmarks, strategy, and resources with the stated goals.
    Still, some of what the vision wishes to achieve is 
laudable. It is a tragedy that the United States turned away 
from its great, even heroic, achievements in space in the 1960s 
and 1970s. We can, and should, return and maintain our 
leadership in human spaceflight exploration. Indeed, although 
it is our common human destiny to explore the stars, America, 
more than any other nation on Earth, has the magnificent 
scientific prowess that will lead mankind back to space, to 
Mars and beyond. It's not just an opportunity, it's our duty.
    But, there is more immediate and earthbound reason for 
America to assert its leadership in space, and I note that I 
say ``leadership,'' and not ``dominance'' or ``control.'' The 
fact is that human spaceflight programs, especially those that 
stress international cooperation, have consistently been an 
effective tool for the United States in generating goodwill and 
soft power with other nations. The U.S. space program is 
perhaps the very best example of how America's great power is 
often tempered to serve far greater human goals.
    Sadly, that perception of America has been lost over the 
past few years. When NASA was created, part of the motivation 
was to present a peaceful civilian face with the U.S. space 
program, and rightly so, as a stark contrast to the blatantly 
militaristic face of the Soviet space program. But, 50 years 
later, that tide has turned. Many nations, friendly and 
otherwise, now view the U.S. space efforts as centered heavily 
on what they see as potentially threatening military 
applications. Our friends and competitors alike too often see 
our space program as part of an American drive to dominate the 
cosmos as completely as American power now dominates the 
planet. Worse, there is a perception abroad--a false one, I 
might add--that the American human space effort is being bested 
by China.
    And so, we stand at a critical junction. Will the United 
States continue to be considered as the leader in human 
spaceflight, aimed at the benevolent exploration and 
utilization of the heavens, or will we deliberately and 
knowingly abrogate that role to others in a future search for 
military space dominance--futile search for military space 
dominance? While some might think it's time to pull the plug on 
the vision, I would suggest that the price of doing so, in 
terms of international prestige and the consequent benefits of 
leadership, is too high. America needs to be seen as the leader 
into the future, and no venture, no journey, is better to do 
that than human spaceflight.
    With that, I'll end my remarks.
    [The prepared statement of Dr. Johnson-Freese follows:]

Prepared Statement of Dr. Joan Johnson-Freese, Chair, National Security 
           Decision Making Department, Naval War College \1\
---------------------------------------------------------------------------
    \1\ The views expressed are the author's alone and do not represent 
the official position of the Department of the Navy, the Department of 
Defense, or the U.S. Government.
---------------------------------------------------------------------------
    Thank you for the opportunity to present my views on Reauthorizing 
the Vision for Space Exploration. This is a topic which I consider 
important beyond the realm of exploration. The path America follows in 
human space exploration will, I believe, be read by much of the world 
as indicative of America's strategic future. Therefore, I would like to 
address what I consider the value and importance of U.S. human 
spaceflight capabilities, the implications and consequences of any gaps 
in such a capability, and an assessment of NASA's needs in order to 
accomplish its given mission as outlined in the Vision for Space 
Exploration.
    As a matter of full disclosure, in my 2007 book Space as a 
Strategic Asset I wrote about the Vision in less than positive terms.

        Politically, the 2004 Bush space vision was always a vision 
        bordering on fantasy. Though perhaps well intended, it was 
        effectively doomed from the start. The vision as announced was 
        a very broad-brush outline of intent, describing a return 
        manned mission to the moon, as well as manned missions to Mars 
        and beyond. But the devil is in the details, and those details 
        must be in some way attached to reality. Three major 
        circumstantial realities predetermined the outcome of that new 
        vision. First were the budget issues. The domestic budget has 
        been, and will likely remain, an effective hostage to the war 
        in Iraq, homeland security concerns, and clean-up for Hurricane 
        Katrina--and like events in the future . . . Second and equally 
        critical, the NASA budget was already consumed by commitments 
        to support existing programs . . . Third, the public view of 
        the NASA program has consistently been that it is desirable, 
        but expendable. The public supports human exploration, and even 
        recognizes that benefits accrue on Earth, but it prioritizes 
        funding for roads, schools, health care, and near-term benefits 
        over space programs, particularly space exploration.\2\
---------------------------------------------------------------------------
    \2\ Joan Johnson-Freese, Space as a Strategic Asset (New York, New 
York: Columbia University Press, 2007) 16-17.

    Then, and now, I believe the vision did not consider even the basic 
tenants of successful strategy execution; matching goals, strategy to 
achieve the goals, and the resources required to carry out the 
strategy.
    Some individuals involved in the development of the Bush space 
vision have suggested to me the intent was to give NASA a goal and 
allow them, the experts, to figure out how best to get there. That 
would be reasonable except that a multitude of dates were included in 
the speech unveiling the Vision which inherently negated certain 
incremental, paced, and subsequently less resource intensive strategies 
and required instead accelerated strategies which leave little room for 
error and are more resource intensive.

  <bullet> Our first goal is to complete the International Space 
        Station by 2010.

  <bullet> In 2010, the Space Shuttle . . . will be retired from 
        service.

  <bullet> Our second goal is to develop and test a new spacecraft, the 
        Crew Exploration Vehicle, by 2008, and to conduct the first 
        manned mission no later than 2014.

  <bullet> Our third goal is to return to the moon by 2020.

    The shortsighted and unrealistic timetables included in the Vision, 
including acceptance of a gap in U.S. spaceflight capabilities between 
the retirement of the Shuttle and the new vehicle becoming operational, 
created the Rubic's Cube that we are dealing with today.
    Announcement of those dates immediately and inherently created a 
number of dilemmas for NASA, first and foremost, how to keep Shuttle 
flying to complete the ISS while simultaneously investing every dollar 
possible in the development of the new vehicle. The gap between Shuttle 
retirement and the new vehicle becoming operational also raised the 
question of how to send cargo and crews to the ISS after the Shuttle 
was retired. There are few options to answer that question. Clearly the 
U.S. (NASA) will have to pay others to transport goods and people, 
which then creates a follow-on dilemma of having to pay others for 
transportation while trying to maximize funds that can be used to 
develop Ares and Orion as new means of transportation, and as quickly 
as possible.
    Despite the significant execution issues related to the Vision as 
announced in 2004, in my 2007 book I also wrote:

        In the 1960s, leadership was the motivation that took the 
        United States to the moon, as the country wanted to show itself 
        as the winner in a technology-based competition against the 
        Soviet Union. It was a techno-nationalist show of prowess. 
        Today, post-September 11 and, equally or more important, with 
        the ongoing war in Iraq, the United States needs to again 
        recognize and embrace the leadership opportunity offered by 
        manned space exploration.\3\
---------------------------------------------------------------------------
    \3\ Johnson-Freese, Space as a Strategic Asset, 248.

    The advocacy of human spaceflight as a key expression of U.S. 
leadership that I expressed in 2007 is even stronger today. Leadership 
should not be underrated; it is a commodity as important to security as 
any tank or gun. It is generated as much through soft power as through 
military might, and human spaceflight, especially cooperative ventures, 
is a potent soft power tool. In my new book, I cite a quote from 
Retired Air Force General Pete Worden, now Director of NASA's Ames' 
Spaceflight Center. Worden believes that ``space cooperation is already 
serving as `glue' to forge coalitions and keep people working together. 
As one of the few truly global media, space capabilities should realize 
their full potential as the basis for `soft power' influence. This does 
not exclude economic competition among cooperating players--indeed 
shared interests in allowing commercial developments are a foundational 
element of space soft power.'' \4\
---------------------------------------------------------------------------
    \4\ Dr. S. Pete Worden, private interview, 30 March 2008. Cited in: 
Joan Johnson-Freese, Heavenly Ambitions: Will America Dominate Space? 
(Philadelphia, PA: University of Pennsylvania Press) forthcoming 2009.
---------------------------------------------------------------------------
    The United States has, unfortunately, lost its edge on engaging the 
world. A 2007 public opinion poll conducted as part of the Pew Global 
Attitudes Project indicated that: ``Anti-Americanism is extensive, as 
it has been for the past 5 years.'' \5\ The timing of that tumble from 
grace could not be worse. As the lone remaining superpower it is 
critical that if the United States must be seen as a hegemon, it be 
seen as a benevolent hegemon rather than a rogue hegemon. 
Unfortunately, the latter image, particularly as evoked by the war in 
Iraq, has proved hard to shake. Manned spaceflight, especially 
cooperative programs, has consistently been an effective area for the 
United States to generate feelings of optimism for the future, goodwill 
and leadership.
---------------------------------------------------------------------------
    \5\ Global Unease with Major World Powers, 27 June 2007, 
www.pewglobal.org.
---------------------------------------------------------------------------
    Additionally, when NASA was created in 1958, part of the motivation 
was to present a peaceful, civilian face for the U.S. space program, 
juxtaposed to the militaristic face of the Soviet space program. In 
contrast, in 2008 much of the world considers military space efforts as 
the focus on U.S. space activities, efforts potentially threatening to 
them, coupled with a perception that the American manned space effort 
is being bested by the Chinese. Therefore, we are currently at a 
critical junction in deciding whether the United States will continue 
to be considered as the leader in human spaceflight or whether we will 
deliberately and knowing abrogate that role to others.
    A September 2004 report of a task force of the Defense Science 
Board, a prestigious board of high-level advisors to the Pentagon, 
focuses on Strategic Communication.\6\ Strategic communication is a 
critical part of soft power as it conveys messages of U.S. intent to 
the world. Let's be clear: if the United States chooses to abrogate its 
leadership role in human spaceflight, a message will be sent and 
received that will have strategic consequences for the United States 
beyond the space realm. It will be viewed as an indicator of an overall 
U.S. decline in its ability to lead.
---------------------------------------------------------------------------
    \6\ Report of the Defense Science Board Task Force on Strategic 
Communications, September 2004, 56. www.acq.osd.mil/dsb/reports/2004-
09-Strategic_Communication.pdf.
---------------------------------------------------------------------------
    NASA has been caught between a rock and a hard place since 2004. 
Required to meet unrealistic deadlines with insufficient budgets, it 
reconceptualized the 2004 Vision in ways unsatisfying to some, but 
still stretching the bounds of technology development and its own 
organizational capabilities to the limit. The Constellation Program, 
using the Ares rocket and carrying the manned Orion spacecraft, still 
seeks to return a crew to the moon by 2020, or earlier, though even 
2020 seems like a long-shot. Orion won't be ready until 2016 if 
everything goes perfectly in development, which rarely happens. That 
leaves a minimum 5-6 year gap in U.S. human spaceflight capabilities, 
during which time the United States will be reliant on other countries, 
particularly Russia, to reach the ISS. Recent problems with the Russian 
Soyuz capsule used to transport people back-and-forth to ISS raises 
concerns about that option as well. Alternatively, there has been 
discussion about development of a private commercial spacecraft that 
could taxi cargo and crew to the International Space Station, with the 
NASA Commercial Orbital Transportation Service (COTS) program seeking 
to encourage investment in that alternative. That program, however, has 
not been without difficulties and even a successful venture would 
likely not be ready to carry cargo for at least 2 years and crew for at 
least four.
    During this gap period other space faring nations will not sit idly 
by, waiting for the United States to get its human spaceflight program 
back on track. A recent meeting of the Russian Security Council focused 
on the future of Russian space exploration, as part of efforts to 
reinvigorate the country's technological programs, outlining the 
developmental possibilities of the national space program until 2020. 
According to Sergei Ivanov, First Deputy Prime Minister and head of 
Russia's military-industrial development, all aspects of space 
activities were considered separately, including ``manned space 
flights, defense security, socio-economic aspects of space activities, 
scientific and all ground-based related infrastructure, including the 
forthcoming Vostochny (Eastern) spaceport.'' \7\
---------------------------------------------------------------------------
    \7\ The ISCIP Analyst, Volume XIV, No. 12, 24 April 2008.
---------------------------------------------------------------------------
    Chinese human spaceflight activities have taken a slow, incremental 
approach and still managed to create the perception that China is 
``beating'' the U.S. in a new space race. While far from true, what 
China has that the U.S. does not is top-down political will. It is 
likely that China will launch more taikonauts into orbit next Fall, 
toward fulfillment of their official three-part program: launching 
taikonauts into space, which was accomplished with Shenzhou V and VI; a 
space laboratory; and eventually a space station. While there are also 
reports of Chinese intentions to land a man on the moon, there have 
been no official announced plans in that regard. Essential to Beijing's 
more ambitious plans is the development of a new heavy-lift launch 
vehicle, the Launch March 5.
    As recently as March 2007, Huang Chunping, Chief Vehicle Designer 
for Project 921, predicted that China would be able to send taikonauts 
to the moon within 15 years. Key, however, was that he said success 
would depend on Beijing providing adequate funding and successful key 
precursor missions.\8\ There have been other reports as well, including 
one that garnered considerable publicity. Shortly after NASA announced 
in 2005 that it would put a man on the moon by 2018,\9\ Chinese space 
official Ouyang Ziyuan was quoted as saying ``China will make a manned 
moon landing at the proper time, around 2017.'' \10\ Ouyang Ziyuan is a 
key figure in the Chinese robotic lunar mission, Chang'e (which has no 
connection to the manned program). He was either misquoted--a problem 
prevalent in sorting through Chinese space intentions--simply speaking 
in terms of desire rather than official intent, or perhaps just goading 
the United States. Nevertheless, his statement was widely reported in 
the United States, bolstering the perception of a space race between 
the United States and China, with China winning. While U.S. technology 
and capabilities are significantly ahead of China's in all areas, lack 
of political will in the United States to support human spaceflight 
efforts to the level they need to be for milestones to be successfully 
reached allows for the misperception to be perpetuated.
---------------------------------------------------------------------------
    \8\ Reuters, ``Moonshot possible in 15 years,'' 6 March 2007.
    \9\ Guy Gugliotta, ``NASA Unveils $104 Billion Plan To Return to 
the Moon by 2018 Spacecraft Draws on Apollo, Avoids Shuttle Foam 
Problem,'' Washington Post, 20 September 2005, A03.
    \10\ Reuters, ``China Eyes 2017 Moon Landing,'' 4 November 2005.
---------------------------------------------------------------------------
    European space plans are always constrained by resources and 
ability to find consensus among all its key players. New and worrisome 
from Europe, however, is their increasingly prevalent concerns, and 
often suspicions, about U.S. intentions in space. An editorial run in 
The Times (London) after the release of new U.S. National Space Policy 
(NSP) is illustrative. Entitled ``America Wants it All--Life, the 
Universe, and Everything,'' \11\ it stated that apparently space was no 
longer the final frontier, but the 51st state of the United States. The 
editorial went on to say that, ``The new National Space Policy that 
President Bush has signed is comically proprietary in tone about the 
U.S.'s right to control access to the rest of the solar system.'' That 
same newspaper ran an article entitled ``Son of Star Wars takes out 
toxic satellite with $30M space attack'' after the destruction of US-
193 in February 2008. While not challenging U.S. motives explicitly, 
the article cynically stated the satellite's destruction had been 
``broadcast'' by President Bush ``as a safety measure'' and ``the 
Pentagon celebrated its $30 million Star Wars-style interception in 
space.'' \12\
---------------------------------------------------------------------------
    \11\ Bronwen Maddox, ``America Wants it All--Life, the Universe, 
and Everything,'' http://www.timesonline.co.uk/article/0,,30809-
2410592,00.html.
    \12\ Michael Evans and Jane McCartney, ``Son of Star Wars takes out 
toxic satellite with $30m space attack,'' The Times (London) 22 
February 2008, 39.
---------------------------------------------------------------------------
    The situation currently being faced is far from ideal. Quite the 
contrary it is a mess. The United States has spent billions on a space 
station only to find itself unable to get there after 2010 without 
paying someone else for a ride, and having a questionable future 
altogether after 2016. Untenable dates have been set for sometimes 
competing achievements, without sufficient budgets to accomplish one 
let alone more. While some might think it is time to pull the plug on 
the Vision, I would suggest the price of doing so in terms of 
international prestige, with prestige defined as including leadership 
implications, is too high. America needs to be seen as a leader into 
the future, and no venture, no journey, no undertaking represents the 
future more than human spaceflight.
    I believe the Vision for Space Exploration should be reauthorized, 
to assure the continuation of the U.S. human spaceflight program. That 
said, budgets are clearly insufficient to allow programs be completed 
within the current timelines. However, it is not as clear that more 
money would assure that those timelines could be met. People, 
institutions and technology are already being pushed to levels that 
could soon result in a rush to failure. Further, setting deadlines and 
then missing deadlines does not generate confidence--especially for the 
country that said it was going to land a man on the moon and then 
return him safely to Earth within the decade in the 1960s, and did it. 
The difference, however, was that until 1967 the Apollo budget was 
sufficient to achieve the goals that had been set. With Constellation 
that is not and never has been the case. Therefore, consideration 
should be given to restructuring the entire program, with realistic 
timelines developed toward achieving multiple, prioritized goals within 
anticipated budgets. NASA is in the best position to determine that 
prioritization, but it seems that narrowing the gap between Shuttle 
decommissioning and a follow-on system becoming operational ought to be 
a key consideration.
    As part of a restructuring, I encourage the consideration of 
opening the program to more international cooperation. The more 
countries that are involved, the less the perception of a space race 
can be propagated. While there are significant political and technical 
issues potentially involved with international cooperation, there are 
several models of cooperation that could be employed, and the lessons 
learned from ISS can be invaluable.
    Finally, I return to the importance of soft power and having 
countries desire to work with the United States by choice, rather than 
because of its military might or coercion, and the proven ability of 
human spaceflight to both generate soft power and bolster its image as 
a global leader. In May 1961, after the Soviet Union had beat the 
United States into space and established leadership in space 
exploration, President John F. Kennedy put together a message to 
Congress on ``Urgent National Needs.'' While the speech covered many 
issues, its major focus was on the space program. In it Kennedy 
expressed his belief that a manned lunar landing before the end of the 
decade should be the principal goal of the American space effort. He 
stressed this meant a long and costly development program to 
reestablish the Nation's world leadership in technology, and cautioned 
that ``if we are to go only halfway, or reduce our sights in the face 
of difficulty . . . it would be better not to go at all.'' \13\ It was 
a call for the United States to wholeheartedly commit itself to a long-
term objective requiring sustained effort, substantial cost, and 
determination to see it through to a successful conclusion.\14\ That, 
in my opinion, is where we are again, and again we must wholeheartedly 
but realistically commit to achieving our goals.
---------------------------------------------------------------------------
    \13\ John M. Logsdon, The Decision to Go to the Moon: Project 
Apollo and the National Interest (Cambridge Mass.: MIT Press, 1970), 
127-128.
    \14\ history.nasa.gov/SP-4214/ch1-3.html.

    Senator Nelson. Thank you, Dr. Johnson-Freese.
    Because of a time commitment for Senator Vitter, I'm going 
to interrupt the panel here so that Senator Vitter can go ahead 
and ask a few questions.
    Senator Vitter. Thank you, Mr. Chairman. And I--I have to 
go to a swearing-in of a new Louisiana colleague on the House 
side in a few minutes, but I'll certainly try to come back. 
But, before I leave, I did want to get a couple of questions 
in.
    Mr. Kranz, first of all, you praised the plan, which I 
assume includes the architecture of Constellation. In our 
reauthorization bill, would you suggest we spend any time, any 
ink, any paper looking back and re-examining that, even 
briefly? There has been some suggestion from some folks that we 
should consider alternatives--again, Jupiter 120 architecture. 
Would you suggest we turn back, however briefly, before we set 
forth on a new course?
    Mr. Kranz. No, I've--I believe it's important that we don't 
waste too much time looking back. You know, in Mission 
Control--go back to the Apollo 13. The basic objective of 13 
was to get the crew on the track back home with what we thought 
was enough resources to get the job done. We then tuned that 
plan as we went along.
    I have been personally a victim, and I think NASA has been 
victim, of so many studies that seem to be never-ending, that 
burn up the resources, delay the schedule, disenchant the 
people who are executing them. I believe they've had very good 
visibility on the study, and basically on the architecture. 
These graybeard sessions we had weren't just NASA folks. We 
had--our contractor team comes in, we had leaders from Mercury, 
Gemini, and Apollo. This is, I think, a very well-seasoned 
plan.
    So, I would suggest that the--again, the words I used, 
``stay the course,'' and prove that as you will go along, 
because you're going to have opportunities for improvement. 
But, I think, the basic plan is very sound, very well-founded.
    Senator Vitter. Great. Thank you.
    Second question, also for you, Mr. Kranz. Schedule pressure 
was cited as some contributing factor in both Challenger and 
Columbia, in terms of the accidents. Do you think there's a 
danger of creating significant schedule pressure like that by 
having a hard Shuttle retirement date of September 30, 2010, 
versus a policy that says these are the fights and the missions 
we're going to do, we're going to try to do them by 2010, but 
not as hard and firm a date?
    Mr. Kranz. No, I went through the shutdown between the 
Gemini program, where we had to move into Apollo. I never felt, 
and I don't think the operators, the people down in the launch 
pads, really feel any pressure. They are--the only pressure 
they have is that which they put on themselves to do the job as 
safely and as professionally as human--possible. I don't think 
any operator--I mean, you can move this aside, you can talk 
about media, you can talk about, ``Whatever you get, follow the 
budget right on the line,'' but basically these people know 
their jobs. They're professionals at getting the job done. And 
I was very proud of the way that we concluded the Gemini 
program, right--moved almost directly into the Apollo program--
excuse me--Apollo program, and I'm sure that the teams in place 
right now at the Cape and at Houston will handle this job very 
professionally.
    Senator Vitter. So, the hard date basically doesn't bother 
you in that----
    Mr. Kranz. No.
    Senator Vitter.--sense.
    Mr. Kranz. No.
    Senator Vitter. OK.
    And, Ms. Johnson-Freese, do you think our dependence on the 
Russians in the foreseeable future will actually lead to their 
leveraging that and affecting completely unrelated issues, in 
terms of our relationship? Or trying to affect those issues?
    Dr. Johnson-Freese. Very probably. The Russians became 
capitalists very quickly. They learned how to negotiate a tough 
deal very quickly, and I have no doubt that they have also 
learned the term ``spillover,'' that they will be able to 
leverage this wherever they can. I see dependence on anybody as 
an undesirable situation.
    Senator Vitter. Right. Well, their being capitalists, I 
mean, goes to the cost, and that's a big problem, in my mind, 
that we don't have other options, and so, they, to some extent, 
can name the price. But, my question is specifically, would you 
expect them to leverage it beyond dollars into policy in 
completely unrelated areas?
    Dr. Johnson-Freese. I think they will try, Senator. I think 
they will certainly try.
    Senator Vitter. OK.
    Dr. Johnson-Freese. Again, again, I'm not very confident 
about relations with the Russians in the near term, that we can 
count on them being friendly, as we'd like them to be.
    Senator Vitter. Right.
    Thank you very much, and I'll certainly try to return, Mr. 
Chairman. Thanks for your leadership.
    Senator Nelson. Thank you, Senator Vitter.
    Indeed, if anybody questioned what might be the future 
difficulty of the United States in dealing with the Russians, 
that question ought to have been dispelled when we saw that 
Vladimir Putin made a decision that he was not going to release 
power. In fact, he's using the fig leaf of the Constitution to 
have him perpetuate his power. Some people call him the next 
tsar of Russia. From that position we know what happens to the 
accumulation of power. That power is not only focused on areas 
of taking financial advantage, but policy advantage, as well.
    Thanks for your questions.
    Dr. Tarantino?

  STATEMENT OF DR. FREDERICK A. TARANTINO, CEO AND PRESIDENT, 
            UNIVERSITIES SPACE RESEARCH ASSOCIATION

    Dr. Tarantino. Chairman Nelson, thank you for the 
invitation to this hearing.
    On behalf of Universities Space Research Association and 
our 102 member universities----
    I'm sorry? The light's on, yes. Is this better? OK, thank 
you.
    Chairman Nelson, thank you for the invitation to this 
hearing. On behalf of Universities Space Research Association 
and our 102 member universities, we appreciate the opportunity 
to be here today.
    USRA was formed by the National Academy of Sciences in 1969 
and has the mission of advancing space related science and 
technology.
    A strong space program is essential for our country, and 
university research is an indispensable part of that success. 
Universities develop new knowledge crucial for our 
understanding of space, they're a source of innovation needed 
to address both the cost of space activities and approaches for 
new challenges, they also prepare the people who are our 
future.
    I'll focus on five items for the Committee to consider.
    First, NASA and the Vision for Space Exploration should be 
reauthorized in a balanced manner that ensures a strong and 
healthy space science program. The renewed U.S. focus on both 
human and robotic exploration beyond low-Earth orbit frees NASA 
to carry out great new achievements, to explore and eventually 
settle the solar system. It's important that this program be 
authorized, recognizing that science and exploration are 
linked. Science is essential, and recent scaling back of 
scientific plans should be reversed so the complete vision for 
our progress in space can be achieved.
    Second, the importance of universities to our space program 
should be made a stronger part of all NASA programs. The 
position America has in science and technology today could not 
have been achieved without robust university research. The 
environment of academic freedom in universities generates 
knowledge unlike any other. This is especially important in 
space, where we need to find new innovation to address high 
costs and to find solutions to new problems. Universities are 
also the only source of the new highly trained space workforce 
we require. University research should be embedded throughout 
NASA's activities in science, technology for exploration, 
aeronautics, and operations.
    Third, make workforce development of tomorrow's scientific 
and engineering leaders a part of NASA's mission. The America 
COMPETES Act addresses an impending crisis; namely, that 
America can lose its technological advantage in the world, and, 
if that happens, may never get it back. This will have a 
profound impact in every aspect of our future. Responsibility 
for the preparation of the aerospace workforce should be a part 
of NASA's reauthorization. This is a crisis in our country, and 
space must be a part of the solution.
    Fourth, assure adequate emphasis is placed on university-
led missions to provide hands-on training for students. 
Opportunities for students to be involved in hands-on space 
training have declined precipitously, and it's extremely 
important to reverse this. To be leaders in space, we must have 
the best-trained people. In particular, the ability of a Ph.D. 
student to conceptualize and experiment, design and build the 
hardware, launch it into space, collect data, and analyze it is 
essential. Without these experiences, our universities cannot 
produce the best scientists and engineers in the world. For 
every experimental opportunity that results in a well-trained 
Ph.D., there are several master's research opportunities and 
dozens of opportunities for undergraduates to be involved in 
space experiments.
    A recent National Academies study showed that our current 
aerospace workforce, the best aerospace workforce in the world 
that's now facing retirement, benefited from seven times the 
number of these research opportunities when they were on 
campus, 30 and 40 years ago, than are available today. USRA 
member institutions passed a resolution at our annual meeting 
last month urging that these opportunities be increased and 
recommending that NASA be required to spend at least 1 percent 
of its overall budget on university-led hands-on programs. From 
our estimates, we believe this is a doubling of present 
activity, and it's desperately needed.
    We also want to express support for the potential of 
emerging commercial suborbital vehicles being developed to 
contribute in this area. NASA has expressed an intent to 
establish a suborbital scientist participant pilot program, and 
we encourage NASA to pursue this.
    And, fifth, reimburse NASA for the cost of returning to 
flight. As you've noted, NASA spent more than $2 billion 
implementing Space Shuttle safety improvements to help restore 
flight operations after the Columbia accident. The funding for 
these improvements came at the expense of aeronautics, science, 
and exploration programs, and its restoration is urgently 
needed.
    So, in conclusion, NASA must be reauthorized with stronger 
university involvement in science than it has had in recent 
years; by including universities in all aspects of the space 
program, will develop properly trained people for the future 
and produce innovations required for success.
    Thank you for this opportunity to speak, and I look forward 
to answering any questions you have.
    [The prepared statement of Dr. Tarantino follows:]

 Prepared Statement of Dr. Frederick A. Tarantino, CEO and President, 
                Universities Space Research Association
    Chairman Nelson, Ranking Member Vitter, and Members of the 
Subcommittee,

    Thank you for inviting me to testify before you on the 
reauthorization of NASA and the Vision for Space Exploration. I 
appreciate the opportunity to provide the Subcommittee with this 
university perspective.
    I serve as CEO and President of the Universities Space Research 
Association (USRA), a consortium of universities deeply involved in our 
Nation's space program. USRA was formed by the National Academy of 
Sciences in 1969, at the height of the Apollo program. We were given 
the mission of advancing space-related sciences and technology for the 
benefit of humankind. We are now entering our 40th anniversary year, as 
NASA completes its 50th.
    A strong space agency is critically important for our Nation. At 
their annual meeting on March 20, USRA member university 
representatives called for NASA to be reauthorized as the leader of the 
civil space program for the United States and provided with 
significantly increased funding adequate to meet its responsibility to 
carry out a balanced space program, including advancing knowledge in 
the scientific and technology disciplines related to space and 
aeronautics, as well as carrying out the enterprise of space 
exploration itself. They added that the NASA reauthorization should 
specifically acknowledge NASA's support of universities as partners who 
generate new knowledge, make new discoveries in disciplines related to 
space and aeronautics, and train the specialized workforce needed to 
accomplish NASA's missions.
    Citing a decades long decline of small space missions that allow 
hands-on training, our member universities unanimously adopted a 
resolution at their annual meeting urging that at least 1 percent of 
NASA's total budget be devoted to funding competitive opportunities for 
university-led hands-on training provided by university missions on 
sounding rockets, high altitude balloons, remotely piloted vehicles, 
emerging commercial suborbital flights, and university class space 
flight missions.
    The 2007 and 2008 resolutions of USRA member university 
representatives are attached as Exhibit A.
    I will focus my testimony on five key recommendations for the 
subcommittee to consider in its reauthorization of NASA:

  <bullet> First, that the Vision for Space Exploration be continued, 
        in concert with an assured balanced science program;

  <bullet> Second, that the importance of universities to our space 
        program be recognized and university research be made a part of 
        all NASA programs;

  <bullet> Third, that workforce development providing tomorrow's 
        scientific and engineering leaders be made a part of NASA's 
        mission;

  <bullet> Fourth, that adequate funding be devoted to suborbital 
        missions that provide hands-on training; and

  <bullet> Fifth, that NASA be reimbursed, through supplemental 
        funding, the cost of returning the Space Shuttle to flight.
Reauthorize the Vision for Space Exploration, in Concert with a 
        Balanced Space Science Program
    U.S. space exploration is awe inspiring to Americans and to people 
of other countries. A renewed focus by the U.S. on exploration beyond 
low-Earth orbit, both human and robotic, unfastens our space agency to 
carry out new great achievements for our Nation, bring new scientific 
investigation of our solar system, and draw young people into science 
and engineering studies.
    Space is strategic for many nations, and we are in the midst of a 
massive internationalization of it. In 2005, China became the third 
nation to fly a human in space. European Space Agency nations, Japan, 
China, Russia, and India are all resourcing and planning major long-
range space science programs, including lunar and planetary missions. 
China is developing a robotic nuclear-powered lunar rover as the second 
phase of their lunar program. Japan and China sent probes (Kaguya and 
Chang'e-1) to the moon in 2007, and India's launch of Chadrayaan-1 is 
scheduled for 2008. While the U.S. scientific community is restricted 
in its foreign collaborations under International Traffic in Arms 
Regulations (ITAR), ESA is collaborating extensively with China, India, 
and Japan in their lunar explorations. A hesitant approach to 
exploration will cede U.S. supremacy in space to other nations.
    Scientific investigation is central to space exploration, and 
technological innovation is key. The Vision for Space Exploration calls 
for sustained human and robotic exploration. Beginning this year, the 
U.S. is undertaking a series of robotic missions to the Moon that are 
designed to answer important scientific questions and prepare for and 
support future human exploration activities. The Vision calls for the 
conduct of robotic exploration of Mars to search for evidence of life, 
to understand the history of the solar system, and to prepare for 
future human exploration of that body. The Vision also calls for the 
conduct of robotic exploration across the solar system, such as, 
exploration of Jupiter's moons, asteroids and other bodies, and 
includes advanced telescope searches for planets around other stars.
    The Roman poet Ennius wrote, ``No one regards what is before his 
feet; we all gaze at the stars.'' Exploration of wondrous worlds beyond 
our planet fascinate and challenge young people in a unique way. Apollo 
drew a generation into careers in science, technology, and engineering. 
Today, middle schools all over the country have programs building 
robots modeled after the MER rovers, and Hubble images adorn classrooms 
and bedroom walls. Exploration of the Moon, Mars, and other planets is 
a magnet that attracts young people. A sustained exploration program 
can and will help our country reverse the decline of students pursuing 
science and engineering careers.
    USRA asks the Subcommittee to reauthorize the Vision for Space 
Exploration, in all of its aspects, human and robotic, guided by 
compelling questions of scientific importance, and in concert with a 
balanced science program across all the disciplines encompassed by our 
space program.
Include Universities in All Facets of Our Space Program
    Universities have benefited greatly from our Nation's space 
program. Research funding to universities by NASA over the past five 
decades spurred development of entire academic departments and brought 
about the creation of new institutes and laboratories at universities 
in every region of the country. This is made apparent by the growth in 
USRA membership. USRA expanded from its original 47 members at its 
founding; to the 102 universities today that have qualified for 
membership.
    But our universities are more than beneficiaries. They are 
enablers. Without our universities, we would not have the engineering 
and scientific workforce that powers every aspect of our space program. 
Without our universities, we would not have the innovation that brings 
about the technological breakthroughs that enabled our space agency to 
land an American on the Moon and drive robots across the Martian 
surface. And without our universities, we would not have the scientific 
leaders and visionaries that put us at the front of the space race and 
kept America as the leader in space, through to this day.
    Without our research universities, we would not be here today. 
There would be no NASA to reauthorize. Universities are a central 
pillar standing up our space agency, and this needs to be recognized. 
USRA requests the Subcommittee include in its reauthorization of NASA 
direction that our Nation's research universities be included as 
essential partners in every NASA program and undertaking. This has been 
the history of the agency, it is its only future, and it must be 
affirmed and preserved.
    Universities need to be embedded, not only in every NASA science 
program, but also throughout NASA's technology development programs and 
operations. Innovation born from our universities can contribute to 
efficiencies and breakthroughs across the agency; and NASA engagement 
can strengthen our universities, prepare our students for the future, 
and foster American innovation. The mission of our space agency and the 
mission of our research universities form more than an intersection, 
they form a shared dependency.
    Given the importance of university research to the space agency, 
both in terms of basic scientific research, and breakthrough technology 
innovations, USRA also asks the Subcommittee to consider in the 
reauthorization of NASA, inclusion of the agency in the America 
COMPETES Act. As a comprehensive strategy to foster American 
innovation, NASA must be included. The goals of the Act, strengthening 
scientific research, improving technological enterprise, attracting the 
world's best and brightest workers, and providing 21st century job 
training, are consistent with work of NASA and the university community 
that is a part of our space program.
Make Workforce Development of Tomorrow's Space Leaders a NASA Duty
    Should education and workforce development be part of NASA's 
mission? These numbers answer the question for us: The U.S. aerospace 
and defense industry is losing an estimated 27,000 employees per year, 
and the average age of NASA's workforce of engineers and scientists is 
now 46. Twelve percent of NASA's engineers and 21 percent of its 
scientists are now eligible to retire. Estimates show there will be a 
need for more than 1,000 new doctoral and masters graduates each year 
to replace key positions in the retiring NASA aerospace workforce. 
Without a supply of younger workers to assume future leadership roles 
as older workers retire, NASA is facing a looming workforce crisis.
    The Commission on the Future of the U.S. Aerospace Industry found 
in 2002 that, ``The nation's apathy toward developing a scientifically 
and technologically trained workforce is the equivalent of intellectual 
and industrial disarmament and is a direct threat to our Nation's 
capability to continue as a world leader.''
    In the international commercial sector, new European and Asian 
hybrid spectrum geostationary communication satellites are emerging. 
These feature new L- and S-band broadcasting with increased terrestrial 
bandwidth and allow mobile service everywhere--including indoors--thus 
avoiding a flaw that helped drive the first generation of commercial 
satellite services into bankruptcy. A half-dozen European nations have 
sophisticated space workforces that compete with American firms for 
satellite contracts like the one recently let by S2M, a Dubai-based 
startup that will provide mobile television/audio service across the 
Mideast and Africa. Japan, China, and India are also cultivating large, 
highly capable space workforces. Three indigenous South Korean 
satellites are now in polar orbit and relaying images. Even Iran plans 
to put its own satellites in orbit, using indigenous launch capability 
now under development that unfortunately also serves as technology for 
long-range missiles.
    The National Research Council's Committee on Prospering in the 
Global Economy of the 21st Century: An Agenda for American Science and 
Technology wrote in their report, Rising Above the Gathering Storm: 
Energizing and Employing America for a Brighter Economic Future, ``We 
fear the abruptness with which a lead in science and technology can be 
lost--and the difficulty of recovering a lead once lost, if indeed it 
can be regained at all.''
    As President Dan Mote of the University of Maryland, a member of 
the NRC Gathering Storm Committee, said at USRA's annual meeting in 
March of this year, ``The USRA can speak to what is needed to attract 
the best and brightest young space scientists and engineers, such as 
the hands-on training provided by sounding rockets, balloons, and other 
small missions. These space professionals are going to be an ever more 
crucial component of the U.S. workforce, security and prosperity going 
forward.''
    The environment is changing before us, and there is urgency to act 
now. A failure to invest in today's students and young professionals 
will seal a crisis when that generation is expected to assume the 
mantle of leadership within the U.S. aerospace community. USRA asks the 
Subcommittee to make clear in its reauthorization of NASA that 
education, and, in particular, preparing tomorrow's leaders in science 
and technology, is a crucial duty of the agency.
Assure Adequate Funding for Hands-On Training Opportunities
    The space workforce in the United States is the best in the world, 
largely because it is led by individuals who benefited from hands-on 
training with actual space projects during their university years. 
These were exciting years for a young person to enter space research, 
and space attracted many of the best young scientists and engineers. 
These years were marked by frequent launches of smaller missions many 
of which were led by university-based teams that included graduate 
students. These students got plenty of hands-on experience, and learned 
first hand the difficulties of designing and constructing an experiment 
or engineering system that would operate reliably in space. Many 
students also learned from designing and building experiments for 
smaller, suborbital flights on rockets or balloons, or by observing 
with an airborne telescope.
    Today, there are fewer opportunities at our Nation's research 
universities for the next generation of scientists and engineers to 
gain the hands-on training they will need to succeed in aerospace 
fields. In fact, the number of flight opportunities through which 
university students can build hardware and analyze related space data 
has declined steadily over the last two decades. Since 1970, suborbital 
experimental launches have decreased eighty percent--from 270 launches 
per year to just 50 planned launches this year.
    The Commission on Implementation of United States Space Exploration 
Policy (Moon, Mars and Beyond Commission) found in 2004 that, ``At 
present, there are insufficient methods for students to acquire hands-
on experience in the scientific and technical disciplines necessary for 
space commerce and exploration.''
    This is a problem that impacts all space enterprise, large or 
small, civilian or military, government or commercial. It affects our 
ability to design and deploy systems for space science missions, human 
space exploration, global climate prediction, commercial ventures in 
space, and national security uses of space. All these enterprises 
require space engineers able to design and construct reliable space 
hardware, and space scientists who understand the space environment and 
the rigors of conducting any activity, robotic or human, in space.
    The decline in hands-on training opportunities for undergraduate, 
masters and doctoral students at universities must be reversed, if the 
United States is to retain its leadership position in space. NASA must 
address this problem by increasing its investment in proven programs 
such as sounding rocket launches, aircraft-based research, and high-
altitude balloon campaigns, which provide opportunities for hands-on 
flight experience at a relatively low cost of failure. While U.S. 
investments in suborbital experimental launches are declining, China 
and other countries are increasing their investments in research and 
development of similar projects to provide future generations of 
scientists the critical training skills that will serve as a foundation 
for future research.
    Opportunities for tomorrow's scientists and engineers can be 
provided at a relatively low cost. The average research payload for 
sounding rocket projects range from $200,000 to $2.5 million. The 
average cost of recent sounding rocket payloads was just over $1 
million, while balloon launch payloads range in cost from just $50,000 
to $1 million. Launch, labor and infrastructure costs involved with 
each payload launch adds additional costs that average $2 million.
    Airborne research programs, such as the Stratospheric Observatory 
for Infrared Astronomy (SOFIA), also provide a platform on which 
instruments can be carried that enable hands-on training. As the Nobel 
Laureate Professor Charles Townes wrote in 2006, ``The [SOFIA] project 
is particularly good for hands-on training of students and young 
scientists. They can fly, operate the system, go to the ground to 
modify and improve the instrumentation, and then fly with it again.''
    USRA asks the subcommittee to include in the NASA reauthorization a 
requirement that NASA spend at least 1 percent of its overall budget on 
university-led hands-on programs such as sounding rockets, high-
altitude balloon campaigns, and airborne research. From our estimates, 
we believe this represents a doubling of current funding levels for 
programs that provide hands-on research and training opportunities for 
our Nation's undergraduate and graduate students in space-related 
disciplines. By increasing NASA's investment in flight opportunities 
for university experiments, we will double the number of students 
engaged in this research and entering the space and engineering 
disciplines.
    A white paper on Educating the Next Generation of Space Scientists 
and Engineers, drafted by the Issues and Program Committee of USRA's 
member universities, is attached as Exhibit B.
    The National Research Council Committee on Meeting the Workforce 
Needs for the National Vision for Space Exploration found in 2006 that, 
``NASA should expand and enhance agency-wide training and mentorship 
programs, including opportunities for developing hands-on experience, 
for its most vital required skill sets, such as systems engineering.'' 
And on October 16 of 2007, Senator Ben Cardin of Maryland, in a 
colloquy with Senator Barbara Mikulski of Maryland, cited the NRC 
report, and stated, ``We know that some of NASA's programs involving 
sounding rockets, weather balloons, and small satellite launches are 
outstanding examples of worthy Federal investment that not only 
produces usable scientific data but provides outstanding hands-on 
learning opportunities for the next generations of scientists and 
engineers. Our investment in these programs has not kept pace with 
demand, and that is a problem we may want to address in future years as 
we consider the NASA budget.''
    I also want to bring to the Subcommittee's attention an exciting 
new way in which university-led experiments with hands-on training 
could be boosted by NASA involvement. Within the next few years, 
suborbital commercial vehicles being developed by such companies as 
Virgin Galactic, XCOR Aerospace, Armadillo Aerospace, and Blue Origin, 
will provide a unique way to engage scientists and researchers. NASA 
has already taken the first step by issuing a Request for Information 
to help in the formulation of a Suborbital Scientist Participant Pilot 
Program.
    By providing the opportunity for researchers and even undergraduate 
students to fly into space along with their experiments, not only can 
new experiments be conducted, but the opportunity can inspire students 
to engage in the math, science, and engineering. The participatory 
approach of the personal spaceflight industry means each suborbital 
launch can be experienced by thousands of people, with young people 
able to tune in and watch live video from space as their professors and 
fellow students conduct experiments in real-time and experience 
weightlessness and the life-changing view of the Earth from space. The 
hands-on experience will create a new generation of Principal 
Investigators who will be prepared to lead the flagship science and 
human exploration missions, later in their careers.
    These new vehicles will provide low-cost access to the space 
environment for scientific experiments and research. The market rate 
for these services has already been set by the space tourist market at 
$100,000-$200,000 per seat, a much lower cost than existing sounding 
rockets.
    We believe the commercial potential here could be energized by the 
participation of our space agency. USRA requests the Subcommittee 
authorize NASA to follow through on the Request for Information by 
establishing the Suborbital Scientist Participant Pilot Program and 
issuing a NASA Research Announcement soliciting investigations. This 
will create a university research payloads market for these emerging 
commercial operations, provide a new way for university researchers to 
conduct experiments with student involvement and hands-on-training, and 
bring the involvement of NASA, and its imprimatur, to an exciting new 
U.S. industry.
Reimburse NASA for the Cost of Returning to Flight
    NASA has spent more than $2 billion in the past few years 
implementing space shuttle safety improvements to help restore flight 
operations after the Columbia accident. The funding for those safety 
improvements came at the expense of sustaining and expanding other 
programs for NASA in aeronautics, science, and exploration. Last year, 
Congress almost provided $1 billion in supplemental NASA appropriations 
to help the agency recoup those expenses and improve funding for other 
agency priorities. We hope that Congress will provide this supplemental 
funding and such other money in FY09, as needed, to help NASA replenish 
funding stripped from a number of critical programs, including the 
Vision for Space Exploration.
Conclusion
    The first Space Act was passed in 1958 and signed into law by 
President Eisenhower, a major legislative act of the 20th century. 
Today, space touches every aspect of American lives and is growing. 
Over the last 40 years activities in space have become integral parts 
of national defense, providing intelligence, early warning, 
meteorology, communications, protection from missile attack, 
positioning, navigation and timing services. Business and financial 
transactions use both space voice and data communications. Space-based 
commercial sensing is used for land-use planning, emergency response, 
weather and environmental monitoring. The replacement for our outdated 
air traffic control system will be space based, and GPS will soon be a 
part of every modern transportation system. Scientific discoveries in 
our galaxy, of our solar system and of our own planet's changing 
climate are exploding. Space also plays a huge part in educating future 
generations--motivating youth to pursue science and technology careers.
    NASA must be reauthorized to make people and innovation one of its 
highest priorities. American universities are the greatest leverage we 
have for affecting America's future in space. They are the source of 
new knowledge and the training ground for the rock-star scientists and 
engineers that are our future. They are the fuel that powers better 
achievements in space, done faster and more cost effectively.
    I ask the Subcommittee to consider these five recommendations, as 
it deliberates the authorization of NASA's future programs: First, that 
NASA's new Vision for Space Exploration be authorized to move forward, 
in concert with an assured and balanced science program across the 
agency; second, that the importance of universities be recognized and 
university research be made a part of all NASA programs; third, that 
workforce development focusing on tomorrow's leaders be made a part of 
NASA's mission; fourth, that 1 percent of the NASA budget be devoted to 
university-led missions to provide hands-on training; and fifth, that 
NASA be reimbursed, through supplemental funding, the cost of returning 
the Space Shuttle to flight.
    Thank you for this opportunity to appear before you today. I look 
forward to working with you and would be happy to answer any questions.
                                 ______
                                 
                               Exhibit A
Resolution of the Council of Institutions of the Universities Space 
        Research Association
    We being the members of the Council of Institutions (``Council'') 
of the Universities Space Research Association (``USRA''), a nonprofit 
corporation organized under the laws of the District of Columbia, 
hereby adopt the following resolution:

        WHEREAS, USRA is a one hundred member university association 
        chartered, ``To constitute an entity in and by means of which 
        universities and other research organizations may cooperate 
        with one another, with the Government of the United States, and 
        with other organizations toward the development of knowledge 
        associated with space science and technology;'' and

        WHEREAS, the research and teaching faculty of the member 
        universities of USRA see firsthand the decline in workforce 
        development for space science and engineering brought on by the 
        diminishment of hands-on, low-cost flight opportunities 
        involving students; and

        WHEREAS, the Commission on the Future of the U.S. Aerospace 
        Industry found in 2002 that, ``The nation's apathy toward 
        developing a scientifically and technologically trained 
        workforce is the equivalent of intellectual and industrial 
        disarmament and is a direct threat to our Nation's capability 
        to continue as a world leader;'' and

        WHEREAS, the Commission on Implementation of United States 
        Space Exploration Policy found in 2004 that, ``At present, 
        there are insufficient methods for students to acquire hands-on 
        experience in the scientific and technical disciplines 
        necessary for space commerce and exploration;'' and

        WHEREAS, the National Academies Committee on Meeting the 
        Workforce Needs for the National Vision for Space Exploration 
        found in 2006 that, ``NASA should expand and enhance agency-
        wide training and mentorship programs, including opportunities 
        for developing hands-on experience, for its most vital required 
        skill sets, such as systems engineering;''

        NOW THEREFORE, BE IT RESOLVED, that the council supports the 
        plan outlined by the USRA Issues and Program Committee to 
        provide multiple flight opportunities involving graduate and 
        undergraduate students; and

        RESOLVED FURTHER, that we urge the U.S. Government and others 
        to implement and facilitate a plan to provide space flight 
        opportunities that enable the hands on training for graduate 
        and undergraduate students.

        IN WITNESS WHEREOF, the members of the Council have adopted 
        this resolution at their meeting of March 30, 2007.

                   Universities Space Research Association,
                                         W. Jeffrey Hughes,
                                    Chair, Council of Institutions.
Resolution of the Council of Institutions of the Universities Space 
        Research Association
    We being the members of the Council of Institutions (``Council'') 
of the Universities Space Research Association (``USRA''), a nonprofit 
corporation organized under the laws of the District of Columbia, 
hereby adopt the following resolution:

        WHEREAS, USRA is an association of 102 universities, including 
        8 international universities, chartered, ``To constitute an 
        entity in and by means of which universities and other research 
        organizations may cooperate with one another, with the 
        Government of the United States, and with other organizations 
        toward the development of knowledge associated with space 
        science and technology;'' and

        WHEREAS a strong and inspiring NASA is critically important for 
        our nation; and

        WHEREAS research universities are extremely important engines 
        of technological innovation in the United States and play vital 
        roles in preparing the next generation of space researchers and 
        professionals, as well as in developing and executing the space 
        missions that help shape a positive, peaceful vision for all 
        nations and give our country a competitive edge in a world that 
        is increasingly dependent on space technology; and

        WHEREAS the space workforce in the United States has been led 
        by individuals who have had the benefit of hands-on training 
        with actual space projects during their university years, and 
        whereas the number of these crucial hands-on training 
        opportunities at universities has been declining for decades, 
        and that trend must be reversed if the United States is to 
        retain its leadership position in space; and

        WHEREAS future space research and exploration will be enhanced 
        by the substantial and growing technological capabilities of 
        nations other than the United States, and whereas for economic, 
        scientific, and foreign policy reasons, it is vital that 
        barriers to international collaborations by U.S. as well as 
        other universities be reduced;

        NOW THEREFORE BE IT RESOLVED, that NASA should be reauthorized 
        as the leader of the civil space program for the United States 
        and provided with significantly increased funding adequate to 
        meet its responsibility to carry out a balanced space program, 
        including advancing knowledge in the scientific and technology 
        disciplines related to space and aeronautics, as well as 
        carrying out the enterprise of space exploration itself; and

        RESOLVED FURTHER, that the NASA reauthorization should 
        specifically acknowledge NASA's support of universities as 
        partners who generate new knowledge, make new discoveries in 
        disciplines related to space and aeronautics, and train the 
        specialized workforce needed to accomplish NASA's missions; and

        RESOLVED FURTHER, that NASA budgets should reflect the 
        historical precedent that at least 1 percent of NASA's total 
        budget be devoted to funding competitive opportunities for 
        hands-on training provided by university missions on sounding 
        rockets, high altitude balloons, remotely piloted vehicles, 
        emerging commercial suborbital flights, and university class 
        space flight missions; and

        RESOLVED FURTHER, that the fundamental research exclusion in 
        the International Traffic in Arms Regulations should be 
        extended to U.S. aerospace firms, Federal laboratories, and 
        non-profit organizations when they are interacting with 
        universities in pursuit of fundamental space research and on 
        university space experiment hardware.

    IN WITNESS WHEREOF, the members of the Council have adopted this 
resolution at their meeting of March 28, 2008.

                   Universities Space Research Association,
                                           Edward J. Groth,
                                    Chair, Council of Institutions.
                                 ______
                                 
                               Exhibit B
Educating the Next Generation of Space Scientists and Engineers
    ``Our policymakers need to acknowledge that the Nation's apathy 
toward developing a scientifically and technologically trained 
workforce is the equivalent of intellectual and industrial disarmament 
and is a direct threat to our Nation's capability to continue as a 
world leader.'' (The Report of the Commission on the Future of the U.S. 
Aerospace Industry, November 2002)
    ``At present, there are insufficient methods for students to 
acquire hands-on experience in the scientific and technical disciplines 
necessary for space commerce and exploration.'' (Commission on 
Implementation of United States Space Exploration Policy (the Aldridge 
Report), June 2004)
    There is a significant deficit of scientists and engineers in the 
United States with meaningful hands-on experience with space 
instrumentation and space systems, which is jeopardizing the ability of 
the Nation to maintain a vigorous presence in space into the future, 
regardless of whether we are in space for reasons of commerce, 
exploration, national defense, or scientific research. This deficit 
leads not only to a loss of capability, but also to escalating costs of 
many of the space systems vital to the Nation's security and industrial 
competitiveness.
    Space scientists and engineers are trained at universities, 
particularly in the science and engineering graduate programs of those 
research universities active in space research. To attract good 
students into these fields requires sufficient funding for graduate 
stipends from either research projects or graduate fellowships, and 
projects or research opportunities that excite students so that they 
choose space research over other possible areas. These projects or 
research opportunities must also provide the students with the range of 
experiences they need to become fully trained scientists and engineers.
    The scientists and engineers who learned their trades during the 
first decades of the space age have reached or are nearing retirement. 
These were exciting years for a young person to enter space research, 
and space attracted many of the best young scientists and engineers. 
These years were marked by frequent launches of smaller missions many 
of which were led by university-based teams that included graduate 
students. These students got plenty of hands-on experience, and learned 
first hand the difficulties of designing and constructing an experiment 
or engineering system that would operate reliably in space. Many 
students also learned from designing and building experiments for 
smaller, suborbital flights on rockets or balloons, or by observing 
with an airborne telescope.
    The chart shows that the number of these opportunities peaked in 
1968, at the height of the Apollo program. Since then the number of 
student opportunities provided by spacecraft missions, rocket and 
balloon fights and airborne observatory sorties has diminished from 
over 250 per year to consistently less than 50 per year. Most graduate 
students now never have an opportunity to do hands-on science. Instead 
the vast majority of science PhD students analyze data obtained from 
instruments they have never seen and thus have only a vague idea of how 
they work or how they might malfunction. They certainly don't learn the 
important skills needed to conceive of, and to help design and 
construct a space experiment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The chart hides another phenomenon. As space missions have, 
necessarily, become more complex, they also take longer to design and 
construct. The increasing complexity means that fewer universities have 
the resources and capabilities of managing the complexity, so 
increasingly missions are being run by non-academic laboratories and 
research centers. The mission time scale is now significantly longer 
than a typical graduate student remains in school. Both of these 
effects significantly decrease the likelihood of graduate student 
involvement, exacerbating the problem.
    This is a national problem. It affects not only space science, but 
also human space exploration, global climate prediction, commercial 
ventures in space, and national security uses of space. All these 
enterprises require space engineers able to design and construct 
reliable space hardware, and space scientists who understand the space 
environment and the rigors of conducting any activity, robotic or 
human, in space.
What Needs to Be Done?
    These critical needs are addressed by a proposed hands-on, rapid 
cycle flight program of moderate risk that focuses on inexpensive 
system development for suborbital and orbital applications. This 
program should provide multiple flight opportunities involving graduate 
and undergraduate students from science and engineering disciplines, 
and should provide the excitement of discovery to attract those who 
will become leaders of the future U.S. space enterprise. The program 
should permit a four-fold increase of hands-on experiences over present 
levels to return to the peak levels of the 60s and 70s. The proposed 
level of activity should allow an average of two launches per month or 
more.

    Senator Nelson. Thank you.
    And all of your written statements will be printed as part 
of the record, as well.
    General Dickman?

      STATEMENT OF MAJOR GENERAL ROBERT S. DICKMAN (RET.),

         U.S. AIR FORCE, EXECUTIVE DIRECTOR, AMERICAN 
        INSTITUTE OF AERONAUTICS AND ASTRONAUTICS (AIAA)

    General Dickman. Good morning, Mr. Chairman, and thank you 
for inviting me to testify in this important reauthorization.
    I'd like to thank all the Members of Congress, in fact, and 
their staffs, for taking the time to meet with AIAA members 
during our Annual Congressional Visits Day. We come to Congress 
every April, and, as was the case with you just a few weeks 
ago, we've been welcomed with hospitality and a willingness to 
engage our members in open and honest dialogue.
    Thank you for including my written statement. I will try to 
keep my remarks very brief.
    As the Executive Director of the American Institute of 
Aeronautics and Astronautics, I represent a constituency of 
over 35,000 aerospace professionals and students. We're located 
in all 50 states and 89 countries internationally.
    During my tenure as Executive Director, I've heard 
countless members at our technical conferences and other venues 
voice their concerns about the fiscal health and the future of 
NASA and the impact on our Nation. As you've noted, if NASA 
were funded at 1 percent of our budget, rather than the 
fraction of 1 percent that has been requested, they'd still be 
terribly stretched.
    We, as a Nation, are not doing the work we should be doing 
in basic aeronautical research and development, we're not doing 
the right things for life sciences and physical sciences, we're 
not doing the right things for education, as you heard from Dr. 
Tarantino, we're not doing the right things for space sciences, 
we're not doing the right things for solar science; and, and 
perhaps more important, because 93 percent of NASA's budget 
goes to human spaceflight and exploration, we will not execute 
the program that's included in that vision with the budgets 
that have been requested.
    NASA is too important to this country to be allowed to 
continue to atrophy. It's too important to our youth, it's too 
important to our education, to our overall technical strength, 
to our long-term economic growth, and, as you well know, Mr. 
Chairman, from your service on the Armed Services Committee, to 
our national security, as well, and to the many things that are 
more directly related to the mission of that agency.
    I've identified, in a short list, the areas that I believe 
are at risk. I am not suggesting that NASA funds be reallocated 
to these areas at the expense of something within their budget. 
I'm a strong supporter of human exploration. It is among the 
most important endeavors that humankind has ever undertaken. 
Instead, I believe that the NASA top line must go up to be a 
level consistent with NASA's importance to this Nation, to our 
economic strength, our national security, and the future of 
mankind. The question is not whether we, as a Nation, can 
afford more funding for NASA, it's whether we're willing to 
invest in our own future.
    Mr. Chairman, I appreciate the opportunity to share my 
views and those of the American Institute of Aeronautics and 
Astronautics on this enormously important legislation, and we 
thank you for all that you do for this Nation. I welcome the 
opportunity to answer any questions you may have.
    [The prepared statement of Major General Dickman follows:]

     Prepared Statement of Major General Robert S. Dickman (Ret.), 
 U.S. Air Force, Executive Director, American Institute of Aeronautics 
                        and Astronautics (AIAA)
    Good Morning, Mr. Chairman and members of the Committee. I am Major 
General (USAF-Ret.) Robert Dickman, Executive Director of the American 
Institute of Aeronautics and Astronautics (AIAA). Thank you for 
inviting me to testify on this important issue. I would also like to 
thank all the Members of Congress and their staff for taking the time 
to meet with AIAA members during our annual Congressional Visits Day. 
We come to Congress every year in April and consistently have been 
welcomed with hospitality and a willingness to engage our members in 
open and thoughtful dialogue about important issues.
    As Executive Director of the American Institute of Aeronautics and 
Astronautics, I represent a constituency of over 35,000 aerospace 
professionals and students, located in all fifty states and 89 
countries internationally. During my tenure as Executive Director, I 
have heard many members at our technical conferences and other venues 
voice their concerns about the fiscal health and future viability of 
NASA.
    At a funding level of only a fraction of a percent of the annual 
Federal budget, NASA is being systematically starved. NASA is being 
forced to eliminate or severely reduce some very important work, to the 
detriment of critical aerospace research and development, and more 
broadly to the detriment of our aerospace strength and our industrial 
base. The Vision for Space Exploration was an aggressive, forward-
looking proposal when offered by the President and endorsed by the 
Congress. However, while NASA has undertaken a positive exploration 
agenda, funding levels have not been at all sufficient to meet those 
goals. Thus, in order to come even close to meeting the requirements 
for the Constellation program, NASA has been forced to cut funds from 
other programs, programs that have been at the core of American 
excellence in aerospace for half a century.
    For example, research cuts since 2003 have reduced fundamental 
space-related life science and physical science research programs by 85 
percent, affecting over 1,700 scientists and nearly 3,000 students. 
NASA is the sole steward of this research. If NASA doesn't do it, it 
won't get done--at least not in this country. At the same time, China, 
Japan and other nations are continuing robust research in these areas, 
and those countries are poised to assume the scientific and 
technological leadership that we are letting slip away.
    Furthermore, the Federal aeronautics budget reflects NASA's need to 
focus its resources on other priorities. In 1994 NASA's aeronautics 
budget was $1.54 billion. By FY07 the aeronautics budget was cut to 
$594 million. The FY09 budget reflects further cuts at $447 million. 
With less than a third of its prior budget in this area, critical needs 
are going unmet.
    It is AIAA's position that stable, robust, long-term Federal civil 
aeronautics research and technology initiatives funded at the level 
that will assure U.S. leadership are critical to sustaining a strong 
national economy, maintaining a skilled workforce and ensuring our 
national security. NASA must continue to have a leadership role in this 
effort. The Administration has approved a policy on aeronautics 
research and an implementation plan to achieve the stated goals. These 
were drafted with the collaboration of the best talent from academia, 
industry and government. However, if we cannot execute these programs, 
and continue to lose our advantage in the basic understanding of 
aeronautics that has allowed us to develop the world's finest 
commercial and military aircraft for the past 60 years, it will be the 
result of inadequate funding, not the absence of a well thought out 
plan.
    Turning from aeronautics to space, our domestic space 
transportation capability is achieved using a very limited number of 
vehicle types. Launch vehicle reliability has improved in recent 
decades, but the cost of space access remains very high, even with the 
Evolved Expendable Launch Vehicles. Operational constraints and the 
price of these vehicles limit incentives and opportunities for 
expansion of space operations, in-orbit capabilities, and space 
commercialization. Meanwhile, government investment in advanced launch 
concepts and associated technology that could make space access 
significantly more robust has dropped to nearly zero, as we focus our 
attention on the near-term needs of exploration and assured access to 
space. Absent investment in the truly breakthrough science and 
technology that would lead to revolutionary changes in space 
transportation, U.S. access to space in 2040 will not look 
significantly different from 2020, or 2000, or 1980.
    This is not a new problem. Our government-funded launch systems are 
based on most of the same principles and technologies as the rockets 
that launched Sputnik or Apollo or the Shuttle in 1981. A little over 
50 years after the Wright Brothers' first flight, the jet-powered 
passenger aircraft that became the 707 was being tested. By way of 
comparison, fifty years after the first Delta rocket put the Echo 
satellite into orbit, the Delta II is still the most used American 
launch vehicle. We have been evolving the technology of the 1950s 
ballistic missile programs for half a century. Without investment in 
basic science and technology, that's what we will be doing for the next 
half century. We've already lost almost the entire commercial space 
launch market--a market that was once 100 percent based in the United 
States. If we are still flying legacy-based rockets thirty years from 
now, our only payloads will be from the government. Anyone with a 
choice will have gone overseas.
    Space transportation is the key to our future role as a space-
faring nation. We can regain our leadership role if we apply our 
technical strength to the problem, but it will not happen without 
significantly increased NASA investment.
    Human spaceflight is an inspiring manifestation of our species' 
urge to reach and explore new destinations, which also enables 
discovering much about how we came to be and what might be our future. 
The U.S. has been a leader in this endeavor from the beginning. This 
has led to advances in our educational system, it has inspired some of 
our youth into advanced technology careers, and it has showed the world 
how U.S. aerospace prowess can benefit all of humanity.
    There are some who would draw a distinction between education, the 
quality of our technical workforce, and programs such as NASA's. 
However, the economic growth of this country in the latter half of the 
last century demonstrates the fallacy in that thinking. It would be 
difficult to find any significant growth sector that didn't benefit, 
directly or indirectly, from the emphasis this country placed on 
scientific and technical skills in the early days of the space age. 
NASA's programs inspired generations of young people to study what 
today we call STEM--science, technology, engineering and mathematics. 
Government programs provided scholarships, loans and funding for 
university and industrial research programs that were the incubators 
not only for technology, but also for technologists, the scientists and 
engineers that make it all happen. Without NASA, this country would be 
a very, very different place now. Looking ahead, though, continued U.S. 
leadership in human spaceflight is clearly threatened. I am not 
concerned that other nations are launching humans to space, anymore 
than I am concerned that other nations can launch satellites to space. 
It is a natural evolution of an exciting endeavor. What I am concerned 
about is that NASA is so under-funded that virtually every area in 
aeronautics and astronautics is at serious risk.
    In human spaceflight we expect at least a four-year gap between 
retirement of the Space Shuttle and the first piloted flight of the 
Crew Exploration Vehicle (CEV). Current plans are to rely on Russian 
systems for crew rotation in the interim. Use of the CEV to provide 
crew rotation for the International Space Station (ISS) is not 
projected after 2017, jeopardizing the opportunity to reach the full 
benefit of this unique research facility. There are alternatives to the 
Ares-Orion for access to the ISS, including commercial and government 
approaches. However, none will be available without additional funding. 
Meanwhile, other nations are not standing still. Other countries are 
working vigorously to develop and/or expand a human presence in Earth 
orbit, on the moon, and beyond, with the clear potential to eclipse the 
U.S. leadership status in this area of human achievement and economic 
opportunity. In this case, the issue isn't whether we have the systems 
to sustain U.S. access to space and continue use of ISS once the 
Shuttle is retired; it is a matter of funding.
    In 2003, there were over 1,000 research projects focusing on basic 
non-exploration space physical and life sciences across the United 
States, which supported over 1,500 scientists, and over 3,000 students. 
Today, only 5 years later, there are 85 such research projects, 
supporting approximately 300 students. This is a decrease of 90 
percent. NASA is justifiably fond of speaking of the current crop of 
researchers who were motivated to pursue careers in space-related 
research by their fascination with the Mercury, Gemini and Apollo 
programs that culminated in landing astronauts on the moon. But with 
the absence of NASA-oriented research programs in our universities, 
where will the next generation of these researchers come from?
    Before leaving the area of the science programs, I want to applaud 
Administrator Griffin for several decisions he's made to keep very 
capable scientific satellites functioning. Obviously, the decision to 
do the Hubble repair mission was the most expensive and probably most 
difficult choice. However, Dr. Griffin has also sustained operating 
funds for the Mars Rovers and other satellites. I spent most of my 
professional life engaged in activities related to the development, 
launch and operation of satellites. The idea of turning off a perfectly 
good spacecraft that may have cost hundreds of millions of dollars to 
build and launch, has gotten past the incredibly dangerous trip to 
space and initial deployment and can still perform a useful mission 
even when past its intended life in order to save a comparatively small 
annual operational cost simply makes no sense. The fleet of spacecraft 
NASA is operating to look at our planet, our solar system and the 
universe beyond is unprecedented and truly remarkable. NASA deserves 
nothing but compliments for fielding them--and for continuing to 
operate them.
    I'd like to say a bit more about education. AIAA has worked to 
advance the state of aerospace science, engineering, and technical 
leadership for over 75 years. As such, we are keenly aware of the 
difficulty facing our industry with respect to attracting and 
maintaining a competitive workforce. Addressing this looming crisis is 
a major priority for our Institute.
    The Report of the National Academies, ``Rising Above the Gathering 
Storm'' done at the request of the Congress, documented the problem of 
the weakness of Science, Technology, Engineering and Mathematics in our 
educational system and in the areas of interest in our young people far 
better than anything I could say. The America COMPETES Act is an 
excellent step--but it is just a step. The more recent ``Is America 
Falling Off the Flat Earth?'' by Norm Augustine reminds us that no 
nation has an inherent right to greatness. Generations of Americans 
worked to achieve our greatness, and generations must work equally hard 
to sustain it. What has this got to do with NASA? Everything!
    The technical cohort that came into the American workforce during 
the Apollo era, not the people that built Apollo, but the scientists 
and engineers who were inspired during that era, are leaving the 
workforce, without sufficient replacements in the pipeline. While NASA 
is certainly not the sole source of funding for technology, it provides 
without doubt the most visible motivation for young people to decide to 
study STEM-related subjects.
    Science, Technology, Engineering and Math education in our Nation's 
classrooms provides the critical foundation needed for our future 
national security and economic competitiveness. However, we are too 
quick to consider these as interchangeable disciplines, and assume the 
traditional curricula in mathematics and science will provide 
understanding about technology and engineering.
    To oversimplify, a scientist wants to know something that hasn't 
been known; an engineer want to build something that hasn't been built, 
wants to satisfy a societal need. The scientific mind will tell you 
that in your kitchen there is sodium chloride--salt--and lots of other 
compounds. It will tell you that things melt or boil when heated, that 
eggs come from chickens, and so forth. But it takes an engineering mind 
to address the societal need of producing a meal--of translating 
scientific knowledge into a useful product.
    It is important that NASA funds research. So does the National 
Science Foundation. It is enormously important that NASA be able to 
take that research and develop useful things from it and provide the 
information for others to do the same. The list of useful things that 
have been derived from the space program is too long to be repeated 
here, since NASA research has led to more than 6,000 patents. My point 
is simply that increased emphasis and funding must be directed to the 
Technology and Engineering components of STEM if the Nation is to reap 
the full benefits of STEM spending. In particular, STEM legislation 
should provide strong support for Technology and Engineering education 
at all levels from kindergarten through university. NASA can and must 
play a central role in this effort, just as it is important that the 
America COMPETES Act of 2007 be fully funded.
    To summarize, I will repeat my comments reported in the April 28 
edition of Space News:

    ``NASA is more than stretched, they are just terribly under-funded. 
        Rather than being funded at a fraction of a percent (of the 
        Federal Budget), if they were funded at 1 percent of the 
        budget, they'd still be stretched.

    <bullet> We are not doing the work we should be doing in basic 
            aeronautical research and development.

    <bullet> We are not doing the right kinds of things for education.

    <bullet> We are not doing the right kinds of things for life 
            sciences.

    <bullet> We are not doing the right kinds of things for space 
            sciences.

    <bullet> We are not doing the right kinds of things for solar 
            science.

    <bullet> And we are not going to be able to succeed at the 
            exploration program with the budget we've got.''

    NASA is too important to this nation--to our education, to our 
overall technical strength, to our long-term economic growth and to the 
many things that are more directly in its mission to continue to be so 
under-funded. I have identified areas that I believe to be most at 
risk. I am not at all suggesting that NASA funds be reallocated to 
these areas, because the money is simply not there. Instead, I believe 
the so-called NASA top line--the total budget of NASA--needs to go up 
to a level consistent with NASA's importance to the nation, and to 
America's future.
    Mr. Chairman, I appreciate this opportunity to share my views and 
those of the American Institute of Aeronautics and Astronautics on this 
enormously important legislation. I welcome the opportunity to answer 
any questions you may have.

    Senator Nelson. Thank you, General.
    Mr. Whitesides?

STATEMENT OF GEORGE T. WHITESIDES, EXECUTIVE DIRECTOR, NATIONAL 
                         SPACE SOCIETY

    Mr. Whitesides. Thank you, Mr. Chairman.
    My name is George Whitesides, and I serve as the Executive 
Director of the National Space Society, NSS. Thank you for the 
opportunity to share with you the views of NSS and our members.
    We're an independent grassroots organization composed of 
20,000 members, founded in 1974, as you know, with the goal of 
promoting space exploration and development. The ultimate 
vision of the society is people living and working in thriving 
communities beyond the Earth and the use of vast resources of 
space for the dramatic betterment of humanity. Our members are 
citizens from every state in our great country, but, Mr. 
Chairman, I would note that we, of course, have our strongest 
chapters in Florida.
    On behalf of the NSS membership, I would like to share the 
following five major recommendations for the reauthorization:
    First, the Vision for Space Exploration should be 
reauthorized by the Congress. Endorsed with bipartisan support 
in 2005, the vision sets out an inspiring path for its human 
habitation and use of the resources of the solar system.
    Second, we recommend space exploration be conceptually and 
programmatically linked with the solutions to the pressing 
challenges of Earth, particularly those issues related to 
climate, energy, and the environment. NASA may be the most 
well-equipped agency in the world to help solve the monumental 
challenge of climate change. NASA was instrumental in 
diagnosing the problem, and now is well equipped to craft 
solutions. What America must understand is that the full 
breadth of NASA's skills, people, and technologies will be 
required to meaningfully respond to and solve the biggest 
challenges of our time.
    Third, the most urgent space issue our Nation faces in the 
coming years is the human spaceflight gap. Gerry Carr, 
Commander of the final Spacelab--Skylab mission, excuse me--a 
man who knows firsthand about these issues, wrote to me the 
following comments a few days ago. He said, ``I thought we had 
learned the lesson during the 7-year hiatus between the Apollo 
and Shuttle programs. A huge body of NASA and contractor skill 
and experience just left to do something else, then the 
workforce had to be built up all over again, at no mean cost, 
in order to proceed with the Shuttle and Space Station 
programs.''
    Curtis Schroeder, an NSS member from Atlanta, Georgia, put 
it this way. He said, ``We cannot outsource our manned 
spaceflight needs to other countries if we are to be a world 
leader.''
    We are, indeed, confronted by another gap, and NSS believes 
that Congress should direct NASA to make that gap as short as 
possible, and should use multiple means of doing so.
    We recommend that NASA receive an authorized budget 
addition of $2 billion this coming fiscal year. With these 
funds, NASA could implement an acceleration of the 
Constellation program, fund COTS option D, and get reimbursed 
for the expenses it sustained following the Columbia accident.
    Fourth, we recommend that the reauthorization reiterate 
that NASA should, wherever possible, purchase commercial 
services. Buying services encourages the innovative powers of 
the American entrepreneurial spirit in small and large 
companies, creating dynamics that will, over time, grow our 
economy, lower the cost of space access, and enable NASA to 
focus its efforts and funds on exploration of the frontiers. 
The Senate should commend NASA's leadership for its active 
pursuit of services, including, in particular, COTS, parabolic 
flight, and the new area of commercial suborbital spaceflight.
    Finally, I would like to close with three areas in which 
NASA should make highly leveraged investments that could 
generate significant return in economic utility, public 
support, and global health and welfare.
    First, space-based solar power, in which solar energy is 
collected in space and beamed down to Earth, is a strategic 
goal worthy of our imaginations and national spirit. While SSP 
is not a short-term solution for national energy production, 
the Nation must begin investing in such technologies now if it 
is to meet the energy needs of the future. Congress should 
authorize NASA to perform a new study of the concept and to 
plan for space-based solar power demonstration.
    Second, though it may seem unlikely, if we do nothing, 
sooner or later we will be hit by an asteroid large enough to 
threaten life on Earth. Given the nature of this threat, NASA 
should have an ongoing program for developing defensive 
strategies. This is environmental protection of the highest 
order.
    Third, and finally, NASA should begin designing public 
participation into its mission from the start, using the 
Internet and other modes of communication as a way to enable 
private citizens to access, engage with, and experience future 
exploration missions.
    Thank you for the invitation to share the perspectives of 
the members of NNS with you today, and I look forward to your 
questions.
    [The prepared statement of Mr. Whitesides follows:]

    Prepared Statement of George T. Whitesides, Executive Director, 
                         National Space Society
    Chairman Nelson, Ranking Member Vitter, and Members of the 
Subcommittee:

    Thank you for the opportunity to share with you the views of the 
National Space Society on the upcoming reauthorization of NASA.
    I serve as the Executive Director of the National Space Society 
(NSS). NSS is an independent, grassroots organization with over 20,000 
members, founded with the goal of promoting space exploration and 
development. NSS communicates the excitement and benefits of space to 
the public, and represents the perspectives of the space-interested 
public to policymakers.
    Our members are citizens who live and work in every state in our 
great country. They include a wide swath of America, from teachers, to 
students, to business leaders, to elected officials, to even a few 
astronauts. Most, however, are simply everyday citizens without ties to 
the space industry, citizens who understand the importance of space to 
our Nation and its future.
    I am proud to represent the voices of our members to you today. In 
preparation for this testimony, we solicited their views on these 
issues, in addition to those of our board and policy committee, and the 
members responded with eloquent and nuanced comment on future space 
activities. I will share some of their words with you as part of this 
statement.
    NSS was founded over 30 years ago by a group of leading Americans 
that included Wernher von Braun and Hugh Downs. Their vision, and that 
of our current Governors, such as John Glenn, Tom Hanks, and Buzz 
Aldrin, continues to inspire us today. The ultimate vision of the 
society is:

        ``People living and working in thriving communities beyond the 
        Earth, and the use of the vast resources of space for the 
        dramatic betterment of humanity.''

    While the first part of that vision emphasizes exploration and 
settlement of space, the second emphasizes how the resources of space 
can be used to improve life on Earth. These are both crucial, as I will 
discuss in more detail below, for they hold the key to the long-term 
future of the agency and its mission.
A. The Value and Importance of U.S. Space Exploration From Economic and 
        Strategic Perspectives
    We live in a new age of discovery, in which we learn on a regular 
basis of new oceans under the crust of distant moons, new planets 
around distant stars, and new possibilities for life beyond Earth. Our 
astronauts regularly perform heroic feats on orbit, as they build the 
International Space Station, the largest and most complex science 
project in history. Meanwhile, a new generation of space entrepreneurs 
is emerging, with plans to transform the space sector with new services 
and lower costs. It is an exciting time.
    It has been said that a thousand years in the future, our era will 
be remembered most for the birth of spaceflight, the moment in human 
history when we developed the ability to travel to space. It is 
humanity's ultimate destiny to explore the universe, to develop the 
ability to live for extended periods off planet Earth, and eventually, 
to build communities in space. I firmly believe that the individuals 
who have advanced the space frontier during these early years will be 
remembered as among the greatest heroes of our era, as those who 
recognized the historical importance of space to our Nation and the 
world.
    But we live in the present, and together we must confront three 
interlinked groups of challenges of our time:

  <bullet> Education, competitiveness, innovation and our economy;

  <bullet> Energy, resources, climate, and environmental protection;

  <bullet> Security, diplomacy, and peace.

    My primary message to you today is that space is a key part of the 
solutions to all of these present-day, national challenges. That fact 
is something that we do not hear enough of today, and it is critical to 
ongoing public support for future space activities. What America must 
understand is that the full breadth of NASA's skills, people and 
technologies will be required to meaningfully respond to and solve the 
biggest challenges of our time.
    Our great country must apply its full abilities to solve these 
serious tests over the coming years:

  <bullet> We must inspire and educate our young people to become the 
        scientists, engineers and innovators of tomorrow. Nothing 
        inspires children toward the study of science and engineering 
        like an ambitious space program that matters to our country's 
        future. At a time when our education system is falling behind, 
        we must do all we can to motivate children to enter STEM 
        careers, and to offer them jobs once they enter the workforce.

  <bullet> We must maintain and build our industrial base, and create 
        innovations which build prosperity. NASA's spaceflight 
        capabilities are a strategic asset of the country, and its 
        engineers and contractors have long driven critical 
        technological advances that drive our economy. The space sector 
        has grown to a quarter-trillion dollar global industry, and is 
        one of the few in which the U.S. maintains a positive balance 
        of trade.

  <bullet> We must shift to new forms of energy production, and develop 
        new resources to power and supply our global economy. Space-
        based Solar Power offers a potential future energy source that 
        is clean, fully renewable, and that provides baseload power. 
        Helium 3 resourced from the Moon could provide a much cleaner 
        fuel for fusion power.

  <bullet> We must protect the Earth's environment, and seek to 
        forestall rapid climate change. NASA is the world's foremost 
        climate science agency. Going forward, its world-class system 
        engineering capabilities could help design solutions for 
        climate change on a national and global scale.

  <bullet> We must forge new alliances with allies and competitors, and 
        strengthen our economic and national security. As space becomes 
        increasingly important for the global economy and global 
        security, America must lead to establish a new system for 
        lasting peace and stability in space and on Earth.

    NASA can be the keystone to the future, critical to the great 
challenges of the present, central to solving the issues that Americans 
care most about. But only if we can put forward a bold program that 
links the needs of Earth with the potential benefits of space.
    The Vision for Space Exploration provides the foundation for such a 
bold program, and as such, it should be reauthorized by the Congress. 
Endorsed with bipartisan support, the Vision sets out an inspiring path 
toward human habitation of the Moon, Mars and other destinations in the 
solar system. It builds on the hard-won wisdom following the Columbia 
accident: that the risk faced by American astronauts deserves a worthy 
goal, that of exploration of the solar system. Under the Vision, an 
official path for human exploration beyond low-Earth orbit was set out 
for the first time in at least a decade.
    We would recommend that two themes within the general direction of 
the Vision be explicitly directed by Congress within the Authorization:

  <bullet> To link the work of human and robotic exploration more 
        closely with the response to the pressing needs of planet 
        Earth, particularly those issues related to climate and energy;

  <bullet> To recommit to engaging, building and using commercial space 
        services as the preferred option for NASA's needs whenever 
        available.

    The first theme anchors the Vision to the real challenges facing 
America today, creating real sustainability. That, in turn, will help 
build public understanding and support for NASA's mission. The second 
utilizes the full powers of the American entrepreneur, creating 
dynamics that over time will grow our economy, lower the cost of space 
access, and enable NASA to focus its own efforts and funds on 
exploration of the frontiers. Both themes will ultimately support the 
sustainable expansion of our civilization outward to the Moon, Mars and 
beyond, and the expansion of the Earth's economic sphere to include 
those bodies.
    Ultimately, space is the main path forward to resolving the great 
humanitarian and environmental challenge of our time--the global 
disparity between rich and poor. One of our members, James Martin of 
Springfield, Virginia, captured the real scope of the issue at hand:

        It seems to me that the great challenge facing the world in the 
        coming decades is a growing contention for resources--most 
        acutely energy--between the industrialized world (the 
        ``haves'') and those rapidly industrializing countries (the 
        current ``have nots'') that seek a lifestyle similar to ours. 
        China and India, with the world's two largest national 
        populations, are leading this quite natural urge of the ``have 
        nots'' to improve their lot in life. This is leading to 
        increased demand on global resources by economic growth in 
        these two countries--a situation that can only get worse. It 
        has been said that we would need three Earths to provide the 
        energy and mineral resources to support the entire human 
        population at a standard of living equal to the current 
        industrialized countries (who make up only \1/6\ of the 
        planet's population). This leads to a grim conclusion that the 
        ``haves'' will increasingly have to fight to defend their 
        current advantaged position (a dubious moral proposition), or 
        we will have to change the ``playing field'' by accessing 
        energy and mineral resources beyond this planet. Moreover, 
        fossil fuels cannot support a massive increase in global 
        industrialization without pushing us even further into 
        environmental collapse.

        There has never been a better time for a fundamental change in 
        our perception of the future. If mankind can access resources 
        beyond Earth, we can offer the hope of economic well-being and 
        a clean environment for all, and avoid debilitating future 
        resource conflicts that will only make us all poorer. America's 
        space program must be oriented toward creating this future.
B. The Implications and Consequences of Any Gaps in the Nation's Space 
        Capabilities
    Curtis Schroeder of Atlanta, Georgia, wrote to me, in preparation 
for this testimony,

        ``We cannot outsource our manned space flight needs to other 
        countries if we are to be a world leader.''

    Perhaps the most urgent space issue our Nation faces in the next 
few years is the human spaceflight gap between the retirement of the 
Space Shuttle and the start of Constellation Program operations. This 
gap, right now estimated to be five and a half years, will be about as 
long as the gap the Nation experienced between the retirement of the 
Apollo hardware and the launch of the Space Shuttle.
    Our Nation's space program survived that gap, but the environment 
was much different then. Where we once had a single competitor in 
space, we now have several. Where before we faced competition in 
orbital operations rather than lunar adventures, today there are three 
other nations orbiting hardware around the Moon, with Russia and China 
both expressing interest in sending humans there, possibly before 
Constellation's target date of 2020. We are running the risk of falling 
behind in space, even if no ``space race'' has been declared.
    The consequences of the gap, as seen during the transition between 
Apollo and Shuttle, are well known and ominous. Loss of funding 
translates into a loss of NASA's most critical assets: the knowledge, 
corporate memory, and hands-on skills of its people. With a loss of 
jobs comes a loss of economic vitality in communities like Brevard 
County, Florida; and New Orleans, Louisiana, as people move away to 
look for jobs and take their money and families with them. Once those 
people are gone, restoring diminished capabilities and communities will 
not be as simple as issuing a call-back after a brief layoff.
    Jerry Carr, Commander of the final Skylab flight--a man who knows 
about such issues firsthand--wrote me the following comments:

        ``I thought that we had learned the lesson during the seven-
        year hiatus between the Apollo and Shuttle programs. A huge 
        body of NASA and contractor skill and experience just left to 
        do something else. Then the workforce had to be built up all 
        over again at no mean cost in order to proceed with the Shuttle 
        and Space Station programs.

        ``Where is the incentive to build up our scientific and 
        technical base if we have no space program to which those young 
        minds can aspire? Space exploration is where the United States 
        has shown leadership, and in the current climate . . . we can't 
        afford to abdicate the heritage we have established in space.''

    Over 20 years ago, a prescient report came out following the 
Challenger accident, The Report of the National Commission on Space. It 
made a similar observation then, and today the situation is 
significantly more pressing:

        ``Should the United States choose not to undertake achievement 
        of these economies in launch and recovery capability, then the 
        Nation must face the probability that other nations will 
        rapidly overtake our position as the world's leading 
        spacefaring nation. The competition to get into space and to 
        operate effectively there is real. Above all, it is imperative 
        that the United States maintain a continuous capability to put 
        both humans and cargo into orbit; never again should the 
        country experience the hiatus we endured from 1975 to 1981, 
        when we were unable to launch astronauts into space.''

    Another gap is indeed upon us. NSS believes that this Committee 
should make that gap as short as possible, and should use multiple 
means of doing so.
Fund Acceleration of the Constellation Program
    NASA and its contractor team are well on their way toward 
development of the Ares I launch vehicle and Orion capsule. Starting 
over or even stopping to re-evaluate the designs would further extend 
the gap. Therefore, we believe NASA should receive the resources it 
needs to develop the Ares/Orion architecture as it now stands.
    With an additional $2 billion a year, NASA could close the gap to 
three and a half years. This would also reimburse the agency for the 
expenses it sustained in adding safety systems to the Shuttle following 
the Columbia accident. However, many of the processes needed to develop 
the new Ares launch vehicles and Orion Crew Exploration Vehicle are 
linear in nature and cannot be hurried along by additional money or 
resources. NSS asks Congress to fully fund these development efforts to 
meet their best-case schedules.
Authorize and Fund COTS Option D
    In addition to supporting NASA's current efforts to reduce the gap, 
NSS favors providing additional funding for commercial development of 
crew transportation to the International Space Station. In recent 
letters addressed to the Senate and House Appropriations Committees, 
Gary Barnhard, NSS Executive Board Chairman, and Greg Allison, 
Executive Committee Chairman, argued for additional funding of Part D 
of the Commercial Orbital Transportation Services (COTS) program. We 
support COTS Part D because we believe that it could:

  <bullet> Shorten the ``gap'' in U.S. human space access after the 
        Space Shuttle is retired;

  <bullet> Foster technological diversity and competition among the 
        companies providing these capabilities, which also can be used 
        to support other operations;

  <bullet> Allow innovative providers to use their best practices to 
        develop and provide needed capabilities, outside traditional 
        government organizational or procurement channels;

  <bullet> Add budgetary flexibility to NASA's ISS servicing efforts, 
        potentially at a lower cost than NASA could do otherwise; and

  <bullet> Attract outside investment, if the program is properly 
        structured.
Improve Opportunities and Incentives for Commercial Space Activities
    As the COTS program matures, Congress can further both commercial 
development of space transportation systems and provide productive uses 
for the International Space Station after its scheduled defunding in 
2016. This can be done by encouraging NASA to buy services for ISS, to 
conduct space-based research, and to develop space-based education 
opportunities where it can to help stimulate services where none exist 
today. A combination of Space Act agreements and traditional contract 
vehicles could increase demand for commercial transportation services, 
fund new space ventures, and serve as a bridge between ISS's status as 
a government laboratory and its future as a commercial outpost.
    The American taxpayer wants to know that the efforts made and money 
spent to complete the Station have been worth it. One NSS member, Mr. 
James Grosbach, wrote to me in an e-mail:

        Almost as distressing as the upcoming ``gap'' is the projected 
        date of 2016 as the retirement date of the ISS. My God, we'll 
        no sooner have the thing built than we'll be looking at 
        abandoning it. Funds should be made available to upgrade and 
        refurbish ISS systems to keep it usable well into the third 
        decade of the century!

    In short, NSS members believe that it is both good and proper for 
the Nation to continue funding and using ISS as a lab for productive 
science and commercial ventures--either through NASA, the private 
sector, or a combination of the two.
Develop New Heavy Lift Vehicle
    It is critical for exploration of the Moon and Mars for NASA to be 
authorized to continue past development of the Ares I to a new heavy 
lift vehicle. NASA currently has baselined the Ares V vehicle, a new 
development program which will possess the capacity to launch the 
payloads required for lunar surface exploration.
C. NASA's Needs for Accomplishing the Vision for Space Exploration
Full Funding Under the VSE's Original Budget Run-Out
    According to the Congressional Research Service,\1\ when the Vision 
was first proposed in 2004, the Bush Administration stated that $12.6 
billion would need to be added to the NASA budget over the course of 
Fiscal Years 2005 through 2009, with NASA projected budget chart 
suggesting that $150-$170 billion would be spent on the Vision from FY 
2004 to 2020. Most of the money was to come from other NASA programs, 
such as the retiring Space Shuttle. The $12.6 billion, for example, 
comprises $1 billion in new money, and $11.6 billion that is redirected 
from other NASA activities.
---------------------------------------------------------------------------
    \1\ Smith, Marcia S. ``Space Exploration: Issues Concerning the 
`Vision for Space Exploration' Resources, Science, and Industry 
Division.'' CRS Report for Congress Code RS21720, Updated June 9, 2005.
---------------------------------------------------------------------------
    In the FY 2005 budget, the White House projected that NASA's total 
budget would increase about 5 percent per year for FY 2005-2007, then 
at less than the rate of inflation--about 2 percent--for FY 2008-2009. 
However, according to Administrator Griffin's budget testimony and 
actual budget figures, NASA's budget did not meet the expected profile 
in 2006 and 2007, and received a budget increase of 3.1 percent for the 
entire agency for FY 2008.
    What do these figures mean? In simple terms, NASA needs the money 
originally proposed for the Vision to ensure its continued success. At 
present estimates, NASA will require an additional $1-$2 billion to 
accelerate Constellation, repay for Columbia, support COTS-D, and 
protect our national commitments to science.
    This funding will require the joint efforts of the next president 
as well as both parties in both houses of Congress to look after our 
national interest and make good-faith efforts to sustain the Vision. 
The NSS believes there is sufficient cause for hope, given this body's 
bipartisan support for the 2005 Authorization.
A Sustained National Commitment to Space Exploration
    One of the virtues, but also one of the challenges, of living in an 
elected, representative government is that personnel and priorities 
constantly change. Fortunately, the Nation as a whole, the Congress, 
and the President have all seen the value of supporting space-related 
activities since the initial space race of the 1950s. While that 
support has waxed and waned over the years, the Gallup organization 
reports that the percent of Americans who want NASA's budget to remain 
the same or increase has never been lower than 51 percent since 
1984.\2\ I take that as a hopeful sign for what we can accomplish in 
the future.
---------------------------------------------------------------------------
    \2\ Jones, Jeffrey M. ``Support for Space Program Funding High by 
Historical Standards.'' Gallup.com http://www.gallup.com/poll/9082/
Support-Space-Program-Funding-High-Historical-Standards.aspx August 19, 
2003.
---------------------------------------------------------------------------
    This Nation has always stood for progress, expanding the frontiers 
of the possible, and improving the lot of its citizens. If the American 
people are willing to maintain a consistent belief in the value of 
space exploration, then I believe any future President or Congress 
would be safe in continuing this valuable national investment. It is 
about more than following the polls; it is about continuing to support 
an activity that, to the majority of Americans, stands for progress and 
a better future. It also means demonstrating this Nation's commitment 
to being a leader in high technology of all kinds. Space exploration is 
a national emblem of achievement and soft power of which its citizens 
can be justly proud. Support for the Vision, then, is not just a matter 
of material support in the form of passing budgets every year; it is a 
national enterprise that deserves our constant verbal and moral 
support.
An Environment That Encourages Private-Sector Participation
    NSS greatly admires NASA's exploration efforts; that is why we are 
here to support them. And we want NASA to continue its role on the 
cutting edge of technology and the space frontier. However, if we are 
going to have a true ``space economy''--one where individuals and 
businesses are buying and selling goods and services beyond Earth 
orbit--then space activities must be opened more fully to private-
sector participation. The long-term viability of space requires it.
    As I stated earlier, NASA needs to buy services for ISS, research, 
and education where it can to help stimulate commercial services where 
none exist. ISS can become, over time, a pioneering commercial outpost 
in low-Earth orbit. If there are activities in which the private sector 
stands to make a profit, then competing, enterprising companies of all 
types will race to fill the niches. They will diversify, lowering the 
cost of services available for purchase by the government, as well as 
broaden the tax base and create new, spinoff niches that the government 
hadn't considered--that is what it does best.
    Other activities Congress and NASA can perform to ensure a 
welcoming environment for the private sector include:

  <bullet> Allowing commercial firms to make fixed-price bids on cost-
        plus procurements so they do not have to reorganize their 
        business processes to meet the administrative burdens of cost-
        plus contract accounting when dealing with NASA.

  <bullet> Increasing the use of fixed-price, milestone- or 
        performance-based procurements for certain, smaller R&D 
        projects.

  <bullet> Using emerging commercial space flight capabilities for 
        space and earth science, aeronautics, and exploration-related 
        crew familiarization and training missions, including but not 
        limited to parabolic flights, suborbital vehicles, and emerging 
        launch vehicles.

  <bullet> Not demanding a broad use license for intellectual property 
        originating in the private sector as a term of funding 
        demonstrations of the relevant technology, or the development 
        of applications for the technology, but rather agreeing to 
        license this intellectual property for public uses.

    The private sector has historically relied on the government to 
spend money on the difficult, unglamorous things that do not readily 
generate revenue but are necessary for the functioning of a healthy 
economy. These include building physical infrastructure, establishing 
legal ``rules of the road,'' and protecting the individual consumer.\3\ 
Congress and NASA have several excellent opportunities to do all of 
these things through the following programs:
---------------------------------------------------------------------------
    \3\ Sadeh, Eligar. Space Politics and Policy: An Evolutionary 
Perspective. ISBN 1402008791, Springer, 2003.

  <bullet> COTS/COTS D Demonstration Programs--As stated earlier, NSS 
        strongly encourages NASA to fully fund the existing COTS cargo 
        and crew launch demonstration and development programs. Even if 
        the competitors currently receiving funding--SpaceX and Orbital 
        Sciences--do not manage to close ``the gap,'' I believe the 
        capabilities they develop will only serve to strengthen U.S. 
        commercial space transportation. After all, if it is truly 
        NASA's goal to focus on exploration, then it will be left to 
        the private sector to handle basic transportation services to 
        low-Earth orbit. The more providers in the market, the lower 
        the potential cost to the government when it needs services in 
---------------------------------------------------------------------------
        the future.

  <bullet> ISS Crew and Cargo Operational Services--Once SpaceX, 
        Orbital, or other providers begin to show results, it is 
        incumbent upon NASA to select those services to support ISS 
        first, with Ares and Orion providing the backup. If the private 
        sector is truly able to generate the economies of scale 
        necessary to dramatically reduce the cost of LEO access, it 
        would truly be a waste of highly capable exploration hardware 
        to make those trips.

  <bullet> Suborbital Commercial Vehicles--Suborbital commercial 
        spaceflight will transform the public's relationship with 
        space, and unlock new opportunities for scientists and 
        astronauts to fly to space with unprecedented frequency. These 
        advantages have been recognized and supported in multiple 
        speeches by NASA Administrator Michael Griffin.

    These new vehicles will serve as platforms for critical climate 
        science research, and offer space professionals authentic space 
        training at higher volumes and a fraction of the cost of 
        orbital spaceflight.

    Under the leadership of Administrator Griffin and Deputy 
        Administrator Dale, NASA has already taken the lead on this 
        opportunity by creating the Suborbital Scientist Participant 
        Pilot Program, which would enable scientists to fly with their 
        experiments as they do onboard high altitude research 
        airplanes. NASA should take the next step for the program by 
        issuing a Research Announcement this year to investigators, to 
        implement the program as commercial vehicles come online over 
        the next 2 years.

    This program should be supported via Congressional authorization, 
        receive appropriations as part of the new NASA initiative in 
        suborbital flight, and be encouraged to expand, for it offers 
        students and researchers the chance to operate space 
        experiments affordably and at high flight rates. It will also 
        encourage a new generation of young people to pursue science 
        and engineering degrees, knowing that they have a good chance 
        to fly to space. Additionally, the U.S. astronauts corps may 
        find it valuable for space training, particularly during the 
        gap in American orbital spaceflight capability.

  <bullet> Parabolic Flight--NASA has recently engaged an outside 
        provider of parabolic flight services after a lengthy 
        competition. This direction is the right direction for the 
        agency, because outside companies can defray their costs over 
        multiple customers, saving the government money while building 
        commercial American capability. The Senate should support this 
        activity, and encourage the agency to pursue similar efforts.

  <bullet> Centennial Challenges--Congress should reinforce the 
        important role Centennial Challenges can play in developing new 
        technologies and capabilities critical to NASA's mission, and 
        in creating economic benefit for taxpayers. This is a 
        relatively low-cost, low-risk way for the government to obtain 
        the benefits of new technology, paying only for success.

    All of these activities enable private citizens, especially our 
young people and students, to learn, develop, and be rewarded for new 
technologies.
Participatory Exploration Activities
    As a tactical and practical matter, NASA must integrate public 
participation meaningfully at the initial design phases of its 
missions. This means using the tools of the Internet as means of 
allowing private citizens access and input into future exploration 
missions. This goes beyond the simple distribution of images via the 
Web, to an era in which the public truly experiences space exploration, 
in real-time and in high resolution. Participatory exploration offers 
the opportunity for NASA and other space organizations to redefine the 
public's relationship with exploration, and energize the public about 
space exploration goals and missions.
    Ames Research Center's open forum in the ``Second Life'' web-based 
graphical environment, known as Co-Lab, provides one such model for 
participation. Private citizens are allowed to join in discussions 
about goals and experiments being developed for robotic exploration of 
other worlds.
    OpenNASA.com has become a sounding board for NASA's Generation Y 
employees to share their experiences and thoughts about how to improve 
the agency at a technological and cultural level.
    To encourage future interest and mass participation in future 
missions, NASA could incorporate Web-based interactivity into robotic 
landers from the start. For example, viewers could vote on where a 
rover might travel to next, where to place the American flag on a 
future human mission to the Moon or Mars, or what to name particular 
features of a landing site.
    All of these methods are electronic means of attracting and holding 
the attention of a generation that has grown up with the Internet and 
expects interactivity--in technologies as well as organizations.
D. Other Relevant Items for the Attention of the Committee
    It might seem paradoxical, but while support for NASA remains 
consistently high, the public often has little specific knowledge of 
the benefits they receive from the agency's activities. NASA's human 
exploration missions can be used to address most of the major issues 
threatening our uncertain world, from energy independence, to economic, 
national, and environmental security. In other words, the space program 
can help address issues Americans are concerned about most.
Energy Resources: Space Solar Power
    Space-based solar power, supported by lunar resources and human 
settlements in space, is a solution that could 1 day have tangible 
benefits directly affecting all Americans, and is a strategic goal 
worthy of our imaginations and national spirit. While SSP is not a 
short-term solutions for national energy production, the Nation must 
begin investing in such technologies at higher levels, so that we will 
be ready for transitions away from traditional fuel sources in the 
decades to come. Congress should authorize NASA and related agencies to 
create a space-based solar power prototype satellite, to be operated in 
Earth orbit or at the International Space Station, as well as other 
space-based technologies that can address these problems.
    The historic investment in aerospace capabilities which America has 
made through NASA, and related space investments from DOD to Comsat, 
have matured at a critical time. Robert Hirsch testified before the 
House Science and Technology Committee on February 29, that the dean of 
world oil analysts, Charlie Maxwell, ``expects gasoline at $12-$15 per 
gallon within a few years.''
    Competition for global oil production has produced these soaring 
prices. Shell Chief Executive Jeroen van der Veer said, ``We are 
experiencing a step-change in the growth rate of energy demand due to 
population growth and economic development, and Shell estimates that 
after 2015 supplies of easy-to-access oil and gas will no longer keep 
up with demand. As a result, society has no choice but to add other 
sources of energy.''
    Coal use in China, India and elsewhere is rapidly expanding. In 
2006, China built 100,000 megawatts of coal-fired power plants, 
according to the International Energy Agency, which far exceeds the 
entire generation capacity of the United Kingdom. India built 22,000 
megawatts of new electricity plants in the last 5 years and has plans 
to add 70,000 megawatts in the next 5 years.
    By 2010, plug-in hybrid vehicles are scheduled to replace some 
gasoline demand with electric vehicles using ``smart'' utility meters 
to charge these at night. The Pacific Northwest National Laboratory 
found that existing U.S. power plants could meet the electricity needs 
of 73 percent of the Nation's light vehicles if the vehicles were 
replaced by plug-ins that recharged at night. Such a huge shift could 
cut oil consumption by 6.2 million barrels a day, eliminating 52 
percent of current imports. But where will all the energy come from in 
the decades to come?
    Many energy ``solutions'' have been proposed, including 
conservation, windmills, bio-fuels plants, ground-based solar cells, 
``clean'' coal and nuclear power. While useful, these still merely 
nibble at the vast energy, economic and environmental problems we face. 
Robert Hirsch has repeatedly emphasized in Congressional statements 
what the International Energy Agency has been saying, that we--as well 
as the other developed countries, are ``doing nothing on the scale 
required'' to address our growing global energy shortfall.
    One future option is Space Solar Power. SSP offers the potential 
for reliable, virtually unlimited, clean, baseload energy. The 
potential advantages are clear:

  <bullet> SSP can take advantage of our current and historic 
        investment in aerospace expertise to expand employment 
        opportunities. SSP's technologies are near-term and have 
        multiple attractive approaches. Many thousands of STEM jobs, on 
        inspiring work that we understand how to do is needed to bring 
        them to practical fruition.

  <bullet> Unlike coal, oil, gas, ethanol, and bio-fuel engines, SSP 
        emits very little CO<INF>2</INF>, only an antenna is on the 
        Earth (the proper term is rectenna, or ``rectifying antenna'').

  <bullet> Unlike bio-ethanol or bio-diesel, SSP does not compete for 
        increasingly valuable farm land or depend on natural-gas-
        derived fertilizer. Corn and other foodstuffs can continue to 
        be a major export instead of a fuel provider.

  <bullet> Unlike nuclear power plants, SSP produces no hazardous waste 
        or nuclear weapons-grade material.

  <bullet> Unlike terrestrial solar and wind power plants, SSP is 
        available 24 hours a day, 7 days a week, in endless quantities. 
        SSP ignores cloud cover, night, storms, dust and wind. Our 
        understanding of the magnetosphere and solar wind interaction--
        SSP's GSO operating environment--has become highly mature since 
        1962.

  <bullet> Unlike coal and nuclear fuels, SSP does not require 
        environmentally problematic mining operations.

  <bullet> SSP may 1 day provide true energy independence for the 
        nations that develop it, eliminating a major source of national 
        competition for limited Earth-based energy resources and 
        dependence on unstable or hostile foreign oil providers.

  <bullet> SSP can be easily ``exported'' anywhere in the world, and 
        its vast energy can be converted to local needs, from 
        appliances in Asia to desalination of sea water in the American 
        West.

    SSP would revitalize America by showing that a multitude of space-
development-related educational fields, from telerobotics to space 
transportation, from wireless power transfer to photovoltaics and 
environmental sciences, are vitally relevant to these great problems. 
Reduced launch costs, the key enabler, will provide unprecedented 
access to space and space operations beginning with clean, baseload 
SSP--reliable power delivery and global energy security at greatly 
reduced environmental impact.
Resources: Helium 3
    Another potential space-based alternative energy source is atomic 
fusion using helium-3, an element rare on Earth, yet abundant on the 
lunar surface and in the atmospheres of the gas giants. This connects 
well with the Vision for Space Exploration, and offers a concrete 
material which NASA could prospect for.
    America's new launch vehicles and manned spacecraft are suitable to 
support a return to the moon and development of mining and refining 
technologies, and should therefore continue as planned. Our first 
outpost on the moon can be supported by engineering projects to create 
infrastructure supporting solar power satellite production as well as 
extraction and use of helium-3.
Global Climate Change
    NASA may be the most well-equipped agency in the world to help to 
solve the monumental challenge facing our generation: climate change. 
NASA was instrumental in diagnosing the problem, and now is well 
equipped to help ameliorate it.
    The connections between NASA and the Earth's environment are deep 
and powerful. NASA is one of the world's foremost climate change 
research organization, producing more climate data than any institution 
on Earth. It also possesses world-class engineering capabilities. There 
is growing agreement that NASA must make climate and energy research 
more central to its mission and purpose, and that NASA can play a 
central global role connecting scientific results with solutions for 
the planet.
Modeling, Simulation, Visualization
    NASA plays a leading role in the international community by 
analyzing the Earth observation data forecasting potential futures. 
Modeling and simulation can help to understand how quickly the climate 
is changing and assist with sustainable agriculture, urban planning and 
disaster response.
Systems Engineering
    NASA has a long history of successfully executing major engineering 
efforts such as the Apollo moon program, the Space Shuttle, and the 
International Space Station. In order to architect such large efforts, 
a mastery of systems engineering is employed. Moreover, in the case of 
the International Space Station, these engineering solutions have been 
created in an international context. The next step is to task NASA to 
conduct system engineering of the planet, organizing global efforts to 
understand and mitigate the drivers of climate change.
Technology Innovation
    Space is a challenging environment. To learn to live and work in 
the engineering constraints of the space environment has challenged 
NASA engineers to come to a deep understanding of the challenges of 
closed environmental systems. Under tight engineering constraints, NASA 
engineers have innovated by creating lightweight, low power, highly 
efficient, and closed loop systems. These innovations have direct 
applicability in the clean technology and green technology sector 
today. Further, solutions like Space Solar Power, in which energy is 
collected in orbit and beamed to earth, offer long-term prospects for 
clean, renewable energy that deserve measured investment today.
    The world has known about the ``greenhouse effect'' since the 19th 
century, when scientists first began to understand the nature of our 
planet's atmosphere and how it works. It acquired new urgency during 
the rise of the environmental movement in the early 1970s. Since that 
time, NASA's Earth-monitoring satellites and sounding rockets have 
continued to record the planet's temperatures, both highs and lows, at 
all levels of the atmosphere. If the world is to act responsibly in 
response to global climate change, it will require the climate data 
NASA collects as one of its many useful missions.
    Exploring other worlds has also taught us about Earth's climate. 
The first images transmitted from Venus in 1975 caused astronomer Carl 
Sagan to call it a ``runaway greenhouse.'' With its thick, poisonous, 
carbon dioxide-rich atmosphere and 500-degree temperatures, Venus 
provided a theoretical model of what could happen to our own planet if 
we allowed our civilization's emissions of greenhouse gases like 
CO<INF>2</INF> to get out of control. It was the first real example of 
how space exploration could affect not just our consciousness as a 
people, but also our behavior and policies. Venus became an object 
lesson in comparative planetology.
    And yet, nearly fifty million miles beyond Earth lies the planet 
Mars. It, too, has an atmosphere composed largely of carbon dioxide. 
And yet that atmosphere is very thin, and its surface temperatures 
range from barely warm to unbearably frigid. Why? What lessons does 
Mars have to teach us about planet Earth and how we behave on it? 
Unlike Venus, we can visit Mars using current technologies, and thus we 
can go there and find out for ourselves. Climate change is an issue 
Americans are passionate about. We owe it to our citizens and the 
people of the world to do all we can to collect the data we need to act 
wisely for future generations.
Planetary Defense
    There are vast numbers of asteroids in near-Earth orbits. Though it 
may seem unlikely, if we do nothing, sooner or later we will be hit by 
an asteroid large enough to threaten life on Earth. Given the nature of 
this threat, the space program is a logical place to start developing 
strategies for overcoming it. This is environmental protection of the 
highest order.
    In October 1990, a very small asteroid struck the Pacific Ocean 
with a blast about the size of the atomic bomb that leveled Hiroshima, 
killing roughly thousands of people in seconds. If this asteroid had 
arrived 10 hours later, it would have struck in the middle of more than 
a million U.S. and Iraqi soldiers preparing for war. How would America 
have reacted to what looked like a nuclear attack?
    In 1908, a small asteroid (perhaps 50 meters across) hit Tunguska, 
Siberia and flattened 60 million trees. That asteroid was so small it 
never even hit the ground, just exploded in mid-air. If it had arrived 
4 hours and 52 minutes later, it could have hit St. Petersburg. At the 
time, St. Petersburg was the capital of Russia with a population of a 
few hundred thousand. The city would have ceased to exist. As it was, 
dust from the blast lit up the skies of Europe for days. Asteroid 
strikes this size probably happen about once every one hundred years. 
There was another Tunguska-class strike in the Brazilian rain forest on 
August 13, 1930.
    Sixty-five million years ago a huge asteroid several kilometers 
across slammed into the Yucatan Peninsula in Mexico. This is the event 
that is thought to have caused the extinction of the dinosaurs (and 
many other species). The explosion was the equivalent of about 200 
million megatons of dynamite. The blast turned the air around it into 
plasma--a material so hot that electrons are ripped from the atomic 
nucleus and molecules cannot exist. This scenario has been repeated 
perhaps once every 100 million years or so. As many as two-thirds of 
all species that ever existed may have been terminated by asteroids 
hitting the Earth.
    We know about the asteroid that killed the dinosaurs because we 
found the crater. But when an asteroid hits the ocean, there may not be 
a crater. If a 400-meter (four football fields) diameter asteroid were 
to fall into the Atlantic Ocean, it would cause a tsunami 60 meters 
high.
    The only way to eliminate the threat of asteroids is to detect and 
divert them. A vigorous space-based civilization capable of reaching, 
exploring, and diverting asteroids into useful, safe orbits would have 
enormous economic incentives to find and use every asteroid passing 
near Earth. The asteroids could be found, diverted, and mined for their 
materials, including platinum-group metals, water ice, and iron, which 
could be used to make steel. This would defuse the threat, make a lot 
of people extremely rich, and keep an entire world safe.
Peace and Security
    Civil space must be a key element of diplomacy for the coming 
years, because space is uniquely suited to addressing certain 
challenges of the current international landscape. The use of space as 
a strategic means of diplomacy can strengthen relations with allies, 
reduce future conflicts with strategic competitors, and engage members 
of the developing world in productive directions, all while 
accomplishing projects of value to America and the world.
    The success of ISS and its international partnerships has formed a 
model for how nations can come together to build great things in space. 
While mistakes have been made and progress has not been as rapid as we 
would like, ISS has established an important precedent for strategic 
cooperation in space. We will need such cooperative ventures as we move 
on to explore and settle the Moon and the planet Mars. And cooperation 
in space can, we believe, lead to strategic and diplomatic goodwill on 
Earth-based matters as well.
Concluding Thoughts
    Our Nation's human spaceflight program can be about more than just 
being ``great,'' it can also be about being ``good,'' by meeting the 
urgent needs of all Americans and the planet as a whole. Such efforts 
offer NASA a vision the public will follow for the long haul, embracing 
as it does both economic opportunities for individuals and 
technological benefits for the common good.
    The Nation faces an historic opportunity with regard to space this 
year. In a time of uncertainty, Congress and the next president can use 
human space exploration as a means to advance and improve this Nation 
as part of a sustained commitment to solving the challenges we face 
today. Space exploration can provide a common keystone for the many 
issues confronting us today, from education to economic uncertainty to 
energy production, planetary health and safety, international 
cooperation, and economic competitiveness. A re-authorized Vision for 
Space Exploration, with the recommendations I've suggested, would be an 
excellent starting point for building a truly spacefaring civilization. 
Therefore, I encourage you to continue supporting human exploration 
beyond LEO, and onwards to Moon, Mars, and beyond.

    Senator Nelson. Well, thank you all. Your statements were 
excellent.
    There is a symmetry of opinion by all of you, and I think I 
could sum that up by asking Mr. Kranz a question.
    During Apollo, the resources of this country for Apollo 
were 3 percent of the discretionary budget. Today, they are 
six-tenths of 1 percent of the discretionary budget. If today's 
budget of six-tenths of a percent had been applied to Apollo, I 
suspect we wouldn't have gotten off the ground. Tell me what 
you think.
    Mr. Kranz. I believe you're right on track. We would have 
been stuck somewhere in the early Gemini program. I believe 
that the--the advancement that we had was really a combination 
of factors. We had the resources to do the job, we had the 
vision that said what the job was, the talented people were 
available to us, they were highly motivated.
    And one of the things that we tend to overlook goes back to 
the university. They had--in 1958, they had passed the National 
Student Defense Loan Program, which then took--provided, 
basically, a GI Bill for young people to go to college, many of 
the first in the family ever to do that, and the universities 
were basically pouring out the young people, the talented young 
people that we had to provide our ramp-up to the support the 
program.
    Frankly, without the resources that we had in the early 
1960s, we wouldn't have made it. We would have seen a Soviet 
flag on the moon.
    Senator Nelson. Well, if we can ever get this message to 
the advisors to the three Presidential candidates, who are 
concerned, as they should be, about the future ability of 
America to compete in a global economy, and are concerned about 
the educational achievements of our young people, that in the 
early 1960s wasn't it the space program that turned kids on so 
much, to want to go into engineering and math and science, and 
produced a revolution in microminiaturization?
    Mr. Kranz. We had the--the real breakthrough, and it was--
you go back to the Soviet missions--twice, they attempted to 
rendezvous, and didn't make it. The spacecrafts passed within 
about 3 miles of each other. By this time, America had 
developed--they couldn't brute--we weren't brute-forcing it 
like the Soviets were, we had developed the technology, we had 
the inspired people in the laboratory, and we had generations 
of young people that were following them. We lived on this seed 
crop that the universities were providing us, but were inspired 
to go through these difficult studies of engineering, math, 
science.
    You know, there's a fine report out right now--in 
preparation for my talks, annually I get a report on what they 
call the U.S. Council on Competitiveness. It's right down here, 
on K Street. They just produced a report, several months ago, 
and it's got some very good news for America. It's also got 
some threats that you can see in the future, one of which 
addresses this China question, and, where do we stand in 
relationship to the other nations of the world in producing the 
young people, inspiring the young people? The news is, is that 
many of these countries are outproducing us, but we still have 
the best university systems and the best talented young people 
and the most inspired people. We've got to continue that job.
    Senator Nelson. And yet, we are producing a fraction of 
what China and India are producing in engineers at this point.
    Mr. Kranz. Yes.
    Senator Nelson. So, the question is, how do we inspire 
young people to want to get into these fields? And certainly 
history would tell us that the Apollo, Gemini and Mercury 
programs clearly were inspiring.
    Let me ask you, Dr. Johnson-Freese, since you are an expert 
on the Chinese space program, tell us where you think that's 
going and what's going to be the ultimate competition between 
China and the U.S. in space?
    Dr. Johnson-Freese. Well, I would pick up on what Mr. Kranz 
was saying, that, in fact, China, like Japan earlier, and like 
India currently, now that it's announced it intends to have a 
human spaceflight program, is using--part of what it is doing 
with that program is inspiring people to go into engineering. 
In Japan, 15 years ago, the space companies, 90 percent of the 
workforce was making washing machines and cars, but they drew 
the best and the brightest in by showing them their space 
division. So, space is a motivator around the world.
    In terms of China, where are they going and where do I see 
the competition headed? And, by the way, the best-selling book 
in China in 2002 was, ``How to Get Your Child Into Harvard,'' 
so they get it.
    [Laughter.]
    Dr. Johnson-Freese. They get it. Where do I think they're 
going? I think they have a very deliberate, incremental, yet 
ambitious, plan laid out, that is broadbased. Like--as in the 
United States, it has a military component, it has a civil 
component. I think their civil component is largely based on 
reading the Apollo playbook and all the benefits that the 
United States got from it. We will likely see another flight 
from China, this coming fall, with probably a move toward 
docking, with a small space laboratory to follow, and, once 
they have their new heavy-launch vehicle in place, a space 
station, down the road.
    I would note that they have not officially announced a 
manned lunar landing. They don't like to announce anything 
until it's sure that they have the technology to carry through. 
Credibility is important. They have said, more than once, they 
will not do an Apollo program. They will go to the moon, they 
will use infrastructure that allows them to keep going. They 
don't want to, as they say, go and say, ``Been there, done 
that.''
    Ultimately, I think the competition--personally, I hate to 
see the U.S. and Chinese space programs characterized as 
competitive. They fly two manned spaceflights over a 5-year 
period and are perceived to be ``beating'' the U.S. space 
program. That's just wrong.
    Where I see the ultimate competition is from the 
technology, the engineers, and the science that will be 
generated through the program. A political scientist in China 
made the comment to me that, ``Now that they have a manned 
spaceflight program, people will understand they make more than 
cheap sneakers and ripped-off designer clothing. They are a 
technology leader.''
    So, I think the economic and technology competitiveness 
will come back to haunt us if we, in fact, don't keep our quest 
to stay ahead.
    Senator Nelson. Given the constraints of classification, 
would you share with us, for the record, what you think that 
the Chinese were trying to demonstrate when they did their 
anti-satellite test by taking out one of their old weather 
satellites?
    Dr. Johnson-Freese. Senator, it's difficult to get into 
Chinese intentions, because we simply don't know. There are 
many different scenarios that have been laid forth, and I think 
the one that's increasingly gaining credibility is that, in 
fact, during the 1980s, when the United States had an active 
ASAT program, the Chinese started one, as well. It was a 
technology development program that took, basically, 20 years 
to reach fruition. And, as many people have said, if you have a 
technology, it's--one test is worth a thousand words--that it 
reached fruition, that it was characterized by the engineers 
running it, China is over-bureaucratized, it's very stove-
piped; the engineers who were in charge of that technology 
development program put it forward as, ``It's time to test.'' I 
think they severely underestimated international response. I 
think they now regret underestimating that response. They 
characterized the debris situation in engineering overall 
increase in debris rather than the--looking at it in terms of 
risk to spacecraft. And it was a lot of bad decisionmaking on 
their part. When they did the prior nonimpact tests, and there 
was no response, I think they miscalculated on what would be 
the U.S. and the international reaction.
    But, the bottom line, I think it was a technology program, 
technology demonstration program.
    Senator Nelson. Is part of their miscalculation that they 
miscalculated the reaction of the world community with regard 
to the tens of thousands of pieces of debris that now threaten 
everybody's space assets?
    Dr. Johnson-Freese. Absolutely. Again, I think that the 
engineers who were putting forth the estimates, the debris 
estimates, were not thinking in global terms at all, and they 
were quite--we actually, I think--now think that their debris 
estimates were pretty on target, but very foolhardy, very 
reckless and self-destructive, now--we now look back and see. 
So, yes, I think they were totally out of line on that, in 
terms of their estimations of perception.
    Senator Nelson. Do you think the world community has 
responded with a sufficient degree of outrage as to the tens of 
thousands of pieces of debris?
    Dr. Johnson-Freese. The Chinese took very careful aim and 
shot themselves in the foot with that test. I think they are 
now recognizing that the international condemnation due them 
was actually moderated, that, in fact, when they cancelled the 
meeting in China on the debris committee that was supposed to 
meet several weeks after, they cancelled it, knowing that the 
condemnation would be harsh and would be due them, and they 
simply didn't want to face it. I think the Chinese will be 
digging themselves out of that hole for a long time, and that--
again, that they are now deeply regretting the situation that 
they brought on themselves.
    Senator Nelson. And others. We had testimony in the Senate 
Armed Services Committee, by the then-Commander of U.S. Space 
Command, on just how many of these pieces of debris threaten 
the assets of any nation's space asset, and how we have to be 
particularly careful now with the Space Station because of the 
altitude of the debris field it's going to take quite a while 
for the Earth's gravity to finally pull it back down to where 
it'll burn up.
    Well, thank you for that. I wanted to get you, shortly 
after that ASAT test, and it just never worked out in your 
schedule, so I'm glad to get this on the record.
    General Dickman, you had mentioned the commercial aspect of 
space. I want to say that I am delighted that there seems to be 
a new attitude in the Air Force in cooperating with the use of 
old pads at Cape Canaveral for commercial space launches. 
Thanks to General Helms, who is going to be departing Patrick 
for her next assignment, they negotiated successfully one of 
the old abandoned pads to be used by one of these new 
commercial ventures, called SpaceX. We're trying to get them 
to, likewise, on any future commercial launches, to utilize 
abandoned pads, which is the logical thing.
    And General Kehler, the new head of Air Force Space 
Command, seems to be of that bent, of wanting to continue that. 
Any insight that you have with your wealth of experience in Air 
Force Space, I would appreciate you sharing that.
    General Dickman. Well, I think you've characterized the 
views of General Helms and General Kehler exactly correctly. 
General Kehler was the Commander at Vandenberg, and, in fact, 
conducted more--or, oversaw more commercial launches than he 
did military ones when he was there. He clearly understands the 
importance of commercial space, not just in the economic sense, 
but in the importance of having a launch rate that allows the 
infrastructure to continue to fly.
    I might point out that, while we look at Mr. Musks's work 
at SpaceX and the transition to a commercial pad, that that's 
really just one in a long series that, in fact, have gone on. 
For many years, the Atlas pads and the Delta pads were shared 
between commercial missions and government missions. Complex 37 
was converted to a--to the Delta IV EELV in the early days of 
the EELV program. We believed that there would be more 
commercial launches than government. Complex 41 was converted 
to handle the Atlas V; again, intending to be a major 
commercial venture, as well as government. Complex 46 was 
transitioned from Navy use to being used by Spaceport Florida. 
So, I think there's a long history of that marriage between 
commercial launch and government launch. What--as I think you 
would correctly characterize, that ebbs and flows with how easy 
it is for a commercial operator to fly out of Cape Canaveral or 
out of Vandenberg, and I think you're also right in 
characterizing the current leadership as being very favorable 
to making that happen. It, at least, is my view that unless 
that happens and unless we build a robust commercial space 
program, the government program--the only ones that'll be 
flying from the United States will be government-funded 
payloads, and that doesn't make any sense.
    Senator Nelson. Mr. Whitesides, you had talked also about 
commercial space. We've mentioned SpaceX, which is part of the 
COTS Program. They have this parabolic flight experience that's 
going on down there. What additional steps do you think NASA 
should take to better leverage these commercial opportunities?
    Mr. Whitesides. That's a great question. We live in a very 
exciting time, Senator, where, you know, really, it's sort of 
the new Space Age, where many of these companies, like Virgin 
Galactic, SpaceX, and others, are building new capabilities 
which the country can take advantage of. And I really think 
that, in the long-term future, sort of the future of humanity, 
it's these commercial entities that are going to go forth and 
really take the country into a promising economic direction.
    I think that the answer to your question is that NASA 
should try to buy services from these companies wherever it has 
needs. So, for example, COTS should be encouraged, developed, 
and then should be prioritized if one of these companies does, 
in fact, demonstrate the capability to get to Station. That 
will free up NASA to explore the frontier with the 
Constellation program.
    Similarly, as Dr. Tarantino noted, there's a suborbital 
spaceflight program that's under consideration by NASA. That 
could dramatically increase the flight rate opportunities for 
scientists, and astronauts for training, and that could be 
recognized and called out and encouraged, going forward.
    Finally, the Parabolic Flight Services Program that you 
note is a really, I think, important example as a pathfinder 
for future types of this work.
    Senator Nelson. Dr. Tarantino, you were talking about the 
universities. How many graduate students and undergraduates are 
typically involved in working on those small-scale, hands-on 
projects that you mentioned in your testimony?
    Dr. Tarantino. Yes, sir. Anywhere--you will find anywhere 
from three to five graduate-type theses, Ph.D. and Master's 
theses, involved in these. And then, as you roll that down to 
the undergraduate level, there can be a dozen or more each 
semester involved in some aspect--in some aspect of this.
    I would like to point out something, though, that connects 
with what Gene Kranz was saying when he was talking about the 
difficulty of maintaining the workforce during the previous 
gap. Engineering is a very tough profession, when you think 
about it, because, if you think about it, the better you are as 
an engineer, the sooner you're putting yourself out of work. 
And so, engineers are constantly looking for what is going to 
be their next task or their next challenge. And if we don't 
have stability in these programs, then, not only are they 
putting themselves out of work, but we are, also--the 
government is, also. And the same thing happens in the 
scientific field, as well, when you talk about professors on 
campus that want to go into the space sciences, when you talk 
about students making decisions on whether or not they're going 
to enter aerospace engineering or space science or not.
    Senator Nelson. And do you want to expand your comments on 
how the universities could work with private spacecraft 
developers to expand research in space? And what do you think 
NASA's role ought to be?
    Dr. Tarantino. Well, you know, we're, quite frankly, quite 
excited about the possibility of this, because the real barrier 
that--one of the largest barriers we face, of course, is the 
cost of access to space. And so, we're very interested in the 
potential of these commercial space opportunities, to reduce 
the cost of access to space, and to be able to, therefore, give 
us more opportunities to get university research payloads.
    Senator Nelson. General, you know, we've got this $100 
billion thing up there, called the ISS, and it is designated as 
a National Laboratory. And yet, NASA claims that the loss of 
Columbia set that back. The budget has severely curtailed the 
research that the U.S. is going to be able to do on the 
Station. Where do you think that ought to go in order to see 
that it is utilized to the fullest extent possible?
    General Dickman. Well, I think, Mr. Chairman, that that's 
not unrelated to the question of the gap, because the gap is 
what, in part, will keep us from using the Station to its full 
capability with American scientists and America experiments. 
And I think that gap can be approached, perhaps, differently.
    If I understand the current approach, one is that COTS may 
be successful, COTS-D capability for hauling humans to low-
Earth orbit, but relies on a vehicle that is some months, or 
perhaps years, away from being able to demonstrate continued 
successful flight before you would want to put humans on it, 
and also a capsule to do that from one contractor, SpaceX; and 
Orbital, I think, isn't even looking to capability D.
    And the other would be to put substantial amounts of funds 
into the exploration program to accelerate the availability of 
a capsule and a launch vehicle that simply are not designed, 
intended, or very efficient, carrying relatively small numbers 
of people to Station. They're designed to go to the moon.
    We have the option to approach that differently. We have 
launch vehicles that can haul a capsule. Atlas V or Delta IV 
have a very proven record that can do that. For a relative--for 
less than the cost of a single Space Shuttle mission, they 
could be human-qualified and a--forgive me, Mr. Kranz, a 
relatively simple capsule to go to low-Earth orbit could be 
built--certainly different than what we would require to go to 
the moon--to carry scientists, astronauts to Station, and then 
get full utility out of that.
    And so, my vision for the Station is not to shut down in 
2015, or 2016, or 2017, it's to keep that operating as long as 
it's doing effective science. Exactly what Administrator 
Griffin has decided to do on other programs, like Hubble and 
like some of the robotic programs, keep flying them as long as 
they do good science. Don't invest in something all brand new 
when you can continue to use something that's available 
already.
    Senator Nelson. Now, you realize that there are people who 
disagree with what you just said.
    General Dickman. Of course.
    Senator Nelson. Mr. Kranz is one of them, in that he 
doesn't want to see the design of Ares and Orion change. 
Because he thinks it's going to be setback. But, you're saying 
that you ought to take another vehicle, another rocket, and put 
a simpler capsule on it, and let's get it to low-Earth orbit. 
Is that what you're suggesting?
    General Dickman. That's what I would suggest. I don't think 
we should change Ares and Orion. I think they are the right 
architecture to do lunar exploration, they aren't the right 
architecture to support Station with human transportation.
    Senator Nelson. Well, are you talking about an alternative 
such as COTS-D, which is the human rated version.
    General Dickman. Again, COTS-D is a risky program. We are 
months, or perhaps longer, away from the first flight of the 
vehicle under the COTS program from the one contractor who 
would build one large enough. We have vehicles that can carry 
that kind of weight to Station today. They're the EELVs. 
They're proven launch vehicles built by the government and by 
private investment.
    Senator Nelson. So, what rocket are you talking about?
    General Dickman. Atlas V and Delta IV.
    Senator Nelson. Man-rate them, and then stick a simpler 
capsule on top of them.
    General Dickman. I believe that could be done for less than 
the cost of one--divide the Space Shuttle cost by the number of 
flights, and you can do that entire program for less than that 
cost.
    Senator Nelson. The question is, where are we going to get 
the money? If all the dollars are absorbed in running out 
Shuttle until completion of the Space Station, and then putting 
your money full bore into the Constellation program.
    General Dickman. Well, Mr. Chairman, I would simply say, 
the same question of where you're going to get the money is the 
question if you try to accelerate Constellation. It's the same 
dollars, it's just a question of whether you use it to 
accelerate Constellation or you keep Constellation on its 
current path and build something that has a unique capability 
to haul humans to Station and back.
    Senator Nelson. Does anybody want to respond to that?
    Mr. Whitesides. Can I, sir, just add one note? Just so that 
we're all on the same page, I think that the architecture that 
you describe could--you know, COTS-D hasn't been exercised yet, 
of course, as a program, and a capsule that goes on top of an 
Atlas V could be contracted within the COTS-D option, just for 
the----
    General Dickman. Sure. Dragon might be----
    Mr. Whitesides.--record. I mean----
    General Dickman.--the perfect capsule.
    Mr. Whitesides. Yes. I'm--yes. I'm----
    Senator Nelson. I am told that the cost estimates for human 
rating of an EELV range from $500 million to a billion dollars. 
And under this funding profile, I just don't know where we're 
going to get that.
    Mr. Kranz?
    Mr. Kranz. Mr. Chairman, I was involved in the man-rating 
of the Titan. I was involved in the man-rating of the Atlas 
vehicle. They were expensive programs that took about a year 
and a half each to accomplish their objectives. They--some of 
the things that we found out, particularly in the early Atlas, 
when we attempted to man-rate it, was that structurally it did 
not have the ability to handle the Max-q loads, which took a 
redesign of the system. So, I believe this question of man-
rating is one that is good from a viewgraph standpoint, but 
when you step up to the cost, the schedule, and then you say 
you're going to put a ``simple spacecraft'' on top of it, it 
would be something I would--at best, it would be something like 
a Mercury on steroids, I guess, because Mercury was the----
    [Laughter.]
    Mr. Kranz. Well, it wouldn't be Apollo. That's what they're 
building with Orion. But, yes, the simple spacecraft is what I 
would consider Mercury on steroids. Well, that took about 3 
years to put in place. So, I don't see that this helps close 
gap. I--and all--I see it as, again, a diversion from the basic 
plan that you've got. As I said, I think you're building the 
DC-3 or the B-52, and I think this is the right plan.
    Yes, it's a bit overdesigned to support the Earth orbital 
missions, but it gets the job done until something comes along, 
possibly later on, through COTS or whatever it is that can get 
the job done. But, I think you've got the right plan, and I 
think you ought to stay with it.
    Senator Nelson. Let's talk about the brain drain. Now, all 
of you have already concluded that if you can shorten the 5-
year gap so that you don't have to lay off a bunch of people, 
you're a lot better off. That's a function of us being able to 
get the present President and the future President to be 
willing to support the additional, $2 billion, $1 billion in 
this year, and $1 billion in next fiscal year, in order to 
achieve that. But, what else can be done to prevent the brain 
drain, since there is going to be this hiatus as we shift from 
the Space Shuttle to the new vehicle? What else can be done? 
Any of you all.
    [No response.]
    Senator Nelson. Well, on the experience of Apollo?
    [No response.]
    Senator Nelson. Well, let me suggest something. You all 
reflect on this. NASA's got a bunch of programs. So do other 
departments of the U.S. Government. What about getting some of 
these people, that otherwise might be laid off, into some of 
those other programs on whatever temporary basis that we have 
of the gap?
    Mr. Whitesides. Senator--I'm sorry.
    Mr. Kranz. Go ahead. Go ahead. Why don't you go on, and 
I'll----
    Mr. Whitesides. I'll always----
    Mr. Kranz. Mr. Chairman, that----
    Mr. Whitesides.--defer to you, man.
    Mr. Kranz. Well, that, to a great extent, is the option I 
had available to me during the Skylab-to-Shuttle transition. I 
had the Earth Resources Aircraft Program, and I was able to 
move a significant number of my people, particularly those--
probably the most critical asset I had were my trajectory-
related people, my mission-design people, because they are the 
ones that will, sort of, lay the groundwork, build the 
conceptual mission profiles, do all the initial analyses that 
you need. So, this was one of the areas that I wanted to 
protect very much. They turned into excellent engineers in the 
Earth Resources Program. They were scientific equipment 
operators, they did the design installation, they worked with 
the principal investigators and the--that was marvelous.
    But, this was a relatively short term, and we knew that the 
Earth Program was diminishing so that they would then come back 
to us. My concern would be, as I said, I sent some people off 
into the medical business, and doggone if they didn't decide 
they wanted to be a doctor. So, that's a two-edged sword. You 
provide them the business opportunities, but these are young, 
talented, mobile people that like challenges, and some 
percentage of those people, maybe your best ones, are going to 
stay there. So, this is a very difficult issue to address, and 
I don't have--and I don't see an easy solution.
    Senator Nelson. When you say that you moved from Skylab to 
Shuttle, you're including Apollo-Soyuz in that, so that you 
actually had a 6-year gap between 1975 Apollo-Soyuz and 1981 
Shuttle.
    Mr. Kranz. Yes. That was the true gap. But Apollo-Soyuz was 
a relatively simple mission that didn't use a significant 
amount of manpower. Probably the--the majority of the manpower 
was spent in just the various negotiations with the Soviets, 
the exchanges--we spent probably more time in transportation 
than we did actually in working many of the aspects of the 
mission. That did not require significant numbers of people.
    Senator Nelson. All right.
    Mr. Whitesides?
    Mr. Whitesides. Senator, if I could, I think what's coming 
down the road in the next administration, almost no matter who 
it is, is a greater emphasis on global climate change and 
energy. And I believe very strongly that NASA can play a very 
significant role in that. It doesn't precisely line up with the 
gap, but I think, broadly speaking, NASA needs to align its 
missions and become more publicly relevant to that effort. And 
I think that what we're going to see on a national level is 
tremendous funds being allocated to efforts related to those 
issues. And NASA is perfectly situated to respond to those 
issues, not just on the science-diagnosis side, but as we, as a 
society, start to plan how we're going to actually implement 
mitigation steps toward that issue, I think NASA is very well 
placed to do that.
    Senator Nelson. Flesh that out a little more.
    Mr. Whitesides. Well, what you have inside NASA is certain 
centers starting to think very seriously about--they see the 
writing on the wall. I'm thinking, in particular, Kennedy and 
Ames and other centers, where they're beginning to work on 
system engineering approaches to how you would think about 
seriously mitigating global climate change. That involves 
things like technology, solar cells, fuel cells, other things 
like that, that--to the entire ``architecting the system'' of 
how we make this transition, as a culture and as a society, 
that even could go all the way to the far future, with 
mitigation steps in space and space-based solar power. And so, 
I think that there's a tremendous amount of program and 
planning that is very well suited to NASA engineers, as they 
are the people who do the big-picture engineering, really 
better than almost anyone in our government. And so, I think 
that there's tremendous opportunities there.
    Senator Nelson. Got any thoughts about cooperation between 
NOAA and NASA on some of this climate observation?
    Mr. Whitesides. Absolutely. I mean, I think we need to 
build on that. But, what I would emphasize is that, in my 
experience, NASA is very good at constructing the largest 
systems, and that's what our civilization is going to be headed 
toward, is potentially building very large systems to respond 
to some of these changes.
    Senator Nelson. Given the so-called funding that is 
projected, the projection for funding of the Space Station is 
not there in NASA's out-year budget beyond 2015, it seems to me 
that with $100-billion asset up there, we clearly ought to 
correct that. I think we're going to try to do that in this 
NASA authorization bill. But, I see you all smiling, which 
would indicate to me that you agree with that. Any comments 
about that?
    Mr. Kranz. I think it's a excellent idea to--we've got a 
massive investment up there. One of the most difficult times I 
had as an engineer is when we had all of these Apollo lunar 
surface experiment packages up and operations going on the 
moon--they were sort of like the Mars rovers--perfect 
operation, still getting large amounts of data, et cetera, and 
the funding ran out, and we were directed to cut the umbilical 
to that. That was a decision that I think impacted the 
scientific community, but basically it was sort of like this 
throwaway mentality that, at times, we have as nations. We sort 
of get tired of this, and we decide it's time to cut it off.
    And I think you're right on track there. We have to come up 
with some plan that addresses the long-term utilization, 
because it's a marvelous vantage point, it provides an 
environment that cannot be replicated any other place. It 
provides a global perspective. And, as you said earlier, it's a 
great opportunity to meet the international community in a 
peaceful environment. The question that's been brought up is, 
how do you get up there cheaply and economically. But that's a 
problem that can be worked. But, I think the key thing is, is 
this has to be part of the long-term plan.
    Senator Nelson. In the money that is allocated in NASA's 
future projections, even though there seems to be unanimity of 
opinion here that it's not enough, particularly to shorten the 
gap. Do you believe that what is projected there is an 
appropriate balance between the programs that are in NASA's 
future? What do you think about that?
    General Dickman. I----
    Mr. Kranz. Go ahead.
    Senator Nelson. General?
    General Dickman. Well, I think--NASA has been charged with 
doing an exploration program that is now taking a 
disproportionate size of an unfunded--underfunded program, 93 
percent of NASA's budget going to human spaceflight or 
exploration. Earth and planetary sciences are down $260 million 
from between 2008 and 2009. Aeronautics, down $150 million from 
2007, doing maybe a third of the aeronautics we were doing 3 or 
4 years ago. There's an enormous amount of work that NASA 
simply isn't doing today that they were doing 5 years ago, and 
that I think that what--if I can extrapolate what Mr. Kranz was 
saying earlier, the enormous amount of work in aeronautics and 
in other programs are really what gave us the base to be able 
to do the space program in the 1950s and 1960s. We're losing 
that base in NASA. And so, I think there--across the board, we 
are paying too high a price in other areas in order to do 
exploration. Not to cut exploration, but to continue to 
increase the budget to be able to do the things that we've cut.
    Senator Nelson. Back to the Climate Change Science Program, 
the funding for the research programs under this program began 
to decrease in Fiscal Year 2005, with the largest cuts seen in 
NASA's budget. There is a projected increase for NASA's part of 
the Climate Change Science Program for the Administration's 
request for Fiscal Year 2009. So, that's going to be something 
that we're going to have to attend to.
    All right. What we'll do is, we'll leave the record open 
for any questions that need to be proffered in writing. We'll 
leave the record open for a few days so that we can send that 
to you, if any additional Senators want further questions.
    Any other final comments by any of the panel members?
    [No response.]
    Senator Nelson. Well, you all have added mightily to the 
repository of information that we need in trying to craft 
policy etched through a NASA authorization bill. So, I am very, 
very grateful to you. It's been a stimulating hearing.
    Thank you.
    And the meeting is adjourned.
    [Whereupon, at 11:11 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
